<html>
<title> - EDUCATION TECHNOLOGY</title>
<body><pre>[Senate Hearing 107-117]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-117

                          EDUCATION TECHNOLOGY

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     JULY 25, 2001--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-895                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                     Terry Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
ERNEST F. HOLLINGS, South Carolina   ARLEN SPECTER, Pennsylvania
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
HARRY REID, Nevada                   JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaho
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          TED STEVENS, Alaska
ROBERT C. BYRD, West Virginia        MIKE DeWINE, Ohio
                           Professional Staff
                              Ellen Murray
                              Jim Sourwine
                              Mark Laisch
                            Adrienne Hallett
                              Erik Fatemi
                               Adam Gluck
                       Bettilou Taylor (Minority)
                        Mary Dietrich (Minority)

                         Administrative Support
                            Carole Geagley
                       Correy Diviney (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Tom Harkin..........................     1
Prepared statement of Senator Tom Harkin.........................     3
Opening statement of Senator Arlen Specter.......................     3
Statement of Dr. Margaret Honey, Vice President and Director, 
  Education Development Center, Center for Children and 
  Technology.....................................................     5
    Prepared statement...........................................     7
Benefits of educational technology...............................     7
Effective software design........................................     9
The role of the Federal Government...............................     9
Statement of Gail Maxwell, Technology Strategist, Griswold 
  Community School District, Griswold, Iowa, and the Waitt/Harkin 
  Innovation Technology Challenge Grant..........................    10
    Prepared statement...........................................    12
Statement of Cheryl Williams, President, International Society 
  for Technology in Education (ISTE).............................    15
    Prepared statement...........................................    17
Statement of Thomas Gann, Director, Strategic Alliances for 
  Global Education Research, Sun Microsystems, Incorporated......    21
    Prepared statement...........................................    23
The need for networking..........................................    23
Progress in e-learning...........................................    24
The Federal role.................................................    25
Recommendations..................................................    26
Statement of Dr. David H. Rose, Ed.D., Co-Executive Director, 
  CAST...........................................................    27
    Prepared statement...........................................    31
Assistive technologies and the present...........................    32
Moving toward the center: the power of digital content for 
  students with disabilities.....................................    32
Building a better future: universal design of learning 
  technologies...................................................    34

 
                          EDUCATION TECHNOLOGY

                              ----------                              


                        WEDNESDAY, JULY 25, 2001

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:40 a.m., in room SD-106, Hon. Tom 
Harkin (chairman) presiding.
    Present: Senators Harkin and Specter.

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. The Subcommittee on Labor, Health, Human 
Services, Education and Related Agencies will come to order.
    This hearing is about what we are going to be doing in the 
21st century to improve the learning skills for all of our kids 
from the earliest age on through all of their education.
    Five or 10 years ago people would argue about whether or 
not technology could really help students learn. I think we 
have settled that argument. It is not about whether, it is 
about how. The ``how'' I think will continue to change as we 
develop new processes and we get new technologies. The 
computers are expensive. But I think they are worth the money 
and they are making differences.
    When technology is used well, it can transform education 
and it can open minds to new worlds of learning and brighten a 
child's future. I have seen how technology can make a 
difference and obviously, I am going to see more this morning 
about how technology can make a difference.
    A few months ago I visited Council Bluffs where some of our 
schools are using a Federal grant and a donation from The Waitt 
Family Foundation to integrate technologies into primary 
grades. Ms. Maxwell is here to talk about that.
    I have also visited--and they were demonstrating something 
here this morning--the Iowa City-based Break Through to 
Literacy, which is using technology for young kids for literacy 
improvement and training. I think they are now in over four 
thousand schools, if I am not mistaken.
    So this technology is booming. It has touched virtually 
every aspect of schools and it is not just about putting 
computers in the classroom and then walking out the door. I 
think, as Ms. Maxwell will explain, the project that we are 
doing in Iowa is changing the way teachers teach, and the way 
students learn, even for kids who are 6 years old.
    I was amazed myself to watch what these little first-
graders were doing with the technology they had and how the 
teachers were interacting with them. Of course, the teachers 
had to go through some training and be brought up to speed on 
it. This one teacher said, ``You know, I knew how to use a 
computer before, but I did not know how to tell other people 
and other kids how to use this.'' And so the training was 
vital. I think technology can get students excited about school 
and give them instant access to the Internet, visualize 
concepts in a way textbooks cannot, open all new worlds. It can 
give all students first-first century skills they need to 
succeed in a technology-based workplace.
    I could go on for hours, but I think I am probably 
preaching to the choir.
    I will say one other thing. As many of you know, I am the 
chief sponsor of the Americans With Disabilities Act. I have 
been involved in the Individuals with Disabilities Education 
Act idea for a long time, 25 years, and the other thing that I 
have seen happen with technology is how it has really improved 
the learning skills and abilities of special needs kids. 
Perhaps that had not been thought of before. But these 
technologies now are enabling kids with learning disabilities 
to do more than they have ever done before and I would also 
like to talk about that today.
    How can the Federal Government help make these things 
happen for schools all over the country? In particular, what 
can this committee do as it writes its appropriation bills to 
encourage the effective uses of technology? The education 
budget is going to be tight, so we have to be strategic about 
how and where we spend our money. I guess the basic question is 
should we put it all in block grants as the President has asked 
or should we set aside for priorities like teacher training and 
community technology centers and other things I am going to 
hear about today.
    We are fortunate to have an outstanding panel of witnesses 
to discuss these topics. We are also lucky to have with us 
several of the most innovative and successful education 
technology programs in the country.
    Immediately following our panel discussion, I invite you 
all to move to the back of the room where you can view, along 
with me, demonstrations of these exciting technologies.
    I will leave the record open for any opening statements 
that any other Senators may have. I welcome our witnesses, Dr. 
Margaret Honey, vice president at The Education Development 
Center and Director for EDC Center for Children and Technology. 
Dr. Honey has been working in the educational technology field 
for more than 20 years. She received her B.A. in Social Theory 
from Hampshire College and M.A. and Ph.D. from Teachers 
College, Columbia University.
    We have Gail Maxwell, whom I mentioned earlier, a 
technology strategist for the Griswold Iowa Community School 
District, where she is administering the Federal Technology 
Innovation Challenge Grant for two elementary schools.
    Cheryl Williams is the president of the International 
Society for Technology in Education and vice president of 
Education for the Corporation for Public Broadcasting.
    Thomas Gann is the director of Strategic Alliances for 
Global Education and Research Business Unit of Sun Microsystems 
and previously had directed the company's Asia Pacific business 
programs.
    David Rose, Doctor of Education, is co-director of The 
Center for Applied Special Technology, a not-for-profit 
organization whose mission is to expand educational 
opportunities for individuals with disabilities through the 
development and innovative uses of technology.

                           PREPARED STATEMENT

    This is a very distinguished panel of witnesses. We welcome 
you here and before we start, I would recognize our 
distinguished ranking member, and good friend, the Senator from 
Pennsylvania, Senator Specter.
    [The statement follows:]
                Prepared Statement of Senator Tom Harkin
    Good morning. This hearing of the Senate Labor, Health and Human 
Services, and Education Appropriations Subcommittee will now come to 
order.
    Five or ten years ago, people would argue about whether technology 
helps students learn. ``All these computers are so expensive,'' they'd 
say. ``Are they really worth the money? Will they really make a 
difference in student achievement?''
    Well, I'm glad to say we've gotten past that debate. The key is not 
whether technology can help students, but how it's used.
    When technology is used well, it can transform education, open 
young minds to new worlds of learning, and brighten a child's future.
    I've seen how technology can make a difference. A few months ago, I 
visited Council Bluffs, Iowa, where some schools are using a federal 
grant and a donation from the Waitt Family Foundation to integrate 
technology into the primary grades.
    Technology has touched virtually every aspect of these schools. 
They didn't just put some computers in the classrooms and leave. As 
Gail Maxwell, one of our witnesses, will explain, this project is 
changing the way teachers teach and students learn--even for kids who 
are just 6 years old. It was amazing to watch what those little 1st 
graders could do.
    Technology can get students excited about school. It can give them 
instant access to the Internet. It can help them visualize concepts in 
ways that textbooks can't possibly match. It can open up a whole new 
world for students with disabilities. And it can give all students the 
21st century skills they need to succeed in a technology-based 
workplace.
    I could go on for hours, but I know I'm preaching to the choir.
    What I'd like to talk about today is how the federal government can 
help make those things happen for schools all over the country. In 
particular, what can this committee do as it writes its appropriations 
bill to encourage effective uses of technology?
    As you may know, the education budget is going to be extremely 
tight this year. So we have to be strategic about how and where we 
spend the money. Should we put it all in block grants, as the president 
wants to do, or should we set some aside for priorities like teacher 
training and community technology centers?
    We're fortunate to have an outstanding panel of witnesses to 
discuss these topics with us today, and I'll introduce them in a 
moment. We're also very lucky to have with us a number of the most 
innovative and successful education technology programs in the country. 
Immediately following our panel discussion, I invite you all to move to 
the back of the room, where you can view demonstrations of their 
exciting techonolgies.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Thank you very much, Mr. Chairman, and I 
commend you for convening this very important hearing on 
technology in education. Senator Harkin and I have passed the 
gavel of the chairmanship of this subcommittee several times--
12 years, he prompts me--I am not sure that I like it better 
when he is the chairman or when I am the chairman. But come to 
think of it, I think I like it better when I am the chairman--
only slightly, because we have a real bi-partisan partnership. 
I learned a long time ago that if you want to get anything done 
in Washington, you have to cross party lines. We have taken the 
lead on this subcommittee with enormous increases in funding on 
education as well as other matters within the--he wants to be 
sure I am properly identified on television--somebody might 
think I was Senator Harkin and could cost him votes in the 
election cycle.
    We have taken the lead on very substantial increases in 
funding. Last year we added more than $6 billion to the Federal 
share on funding and the addition to the National Institutes of 
Health is really a landmark achievement with what NIH has 
accomplished in so many lines.
    But you hear so often the slogan just do not throw money at 
education, do not throw money at anything. So that when you 
move into the technology line, then we have a real opportunity 
to leverage the funds we have and to try to solve some of the 
extraordinarily difficult problems we face in education today.
    I had the benefit of schooling in a very small town in 
Kansas, Russell, Kansas. Bob Dole and I come from the same 
little town, and there were 98 graduates in my high school 
class. The debating team was a great opportunity and classes 
were small.
    It is a little hard for me to take a look at what goes on 
in my current hometown, Philadelphia, with the problems they 
have in the educational system. There has been a lot of time 
and attention, but I think this issue of technology really may 
be the key. It really may be the secret.
    I would like to pay special recognition to Carnegie 
Learning, a Pittsburgh-based firm, and one of the companies 
participating in the demonstration. For the past 17 years 
Carnegie Learning has been doing research and the past 10 years 
testing that research in the classroom. Their learning-by-doing 
curricula unites students and teachers and helps them learn 
together. And to recognize Miss Libby, vice-president of Sales, 
who was here. Just permit me that one parochialism.
    But I want to congratulate and thank all of you for being 
here today and to express my regrets that we have in an 
adjoining room down the hall, actually on the second floor, a 
hearing on a dairy compact, which is a matter that I have to 
attend.
    One of the difficulties of this job is that we have many, 
many hearings at the same time and it requires us to leave 
somewhere we prefer to stay, but I will follow the hearing with 
the transcript and through staff, and I thank you, Mr. 
Chairman.
    Senator Harkin. Thank you very much, Senator Specter.
    I would like to now turn to our panel of witnesses. We will 
start with Dr. Honey.
    I will ask if you could limit your statements to 5 to 7 
minutes. If it runs over a little bit, we will understand, but 
if you could do that, it will leave time for some discussion 
and to see the displays afterwards.
    Again, Dr. Honey, welcome, and please proceed.
    I might just add that all of your statements will be made a 
part of the record in their entirety.
STATEMENT OF DR. MARGARET HONEY, VICE PRESIDENT AND 
            DIRECTOR, EDUCATION DEVELOPMENT CENTER, 
            CENTER FOR CHILDREN AND TECHNOLOGY
    Dr. Honey. Thank you.
    It is a pleasure to be here this morning and in my remarks, 
I have been asked to speak briefly to three questions. First, 
what are the educational benefits of technology?
    Second, what do we now know about how to build quality 
software applications?
    And third, what should be the Federal Government's role in 
advancing educational technology?
    After more than two decades of research, we now have 
decisive evidence that technology use can lead to positive 
effects on student achievement.
    Statewide technology implementation efforts have resulted 
in improved test scores when well-designed and well-implemented 
technologies that support literacy, mathematic and science 
learning result in gains for students.
    With respect to a growing national concern, like 
accountability, technologies have critical roles to play in 
helping educators to use data effectively and efficiently to 
improve instruction.
    Companies like Wireless Generation are pioneering the 
development of diagnostic software applications that teachers 
can use in their everyday work to collect learning data that 
can lead to direct improvement in instruction.
    We have also had the pleasure of working with the Library 
of Congress in developing their American Memory Fellows 
Program, which brings together teachers to create and publish 
classroom applications that use the Library's digitized 
collections in American history.
    Technologies also create new opportunities for students to 
express and communicate their ideas. A team of fifth and sixth 
graders created a website called ``On My Math Applications'' 
which includes information and exploration of math in 
connection with music, stock market investments, travel, 
economic projections and history. This site and hundreds more 
like it have been created by students participating in an 
academic contest called ThinkQuest.
    But technology in and of itself is never the answer. In 
more than 20 years of work, we have learned a single lesson 
over and over again. No matter how well designed the technology 
and how creative individual teachers, if a school is not 
prepared to use technology well, there will be little impact on 
students' learning.
    Leadership, clear educational objectives, sustained 
professional development, adequate technology resources and 
evaluations that lead to continuous improvement are the 
ingredients that make technology work.
    And we need to realize that it takes time for schools to 
learn to use technology as well.
    Several decades of experimentation and research have also 
taught us three critical lessons about effective software 
design. To be effective, educational software must build upon 
what we know from research on learning. It must address real 
challenges teachers are facing and make the task at hand easier 
to accomplish and it must be applicable across multiple 
contexts and multiple curricula by addressing core learning 
challenges.
    Finally, what role should the Federal Government play? 
Federal involvement is critical in two respects, leadership and 
funding.
    The U.S. Department of Education's Office of Educational 
Technology has provided critical leadership in helping promote 
a comprehensive vision for the effective use of technology in 
our schools. This office has defined and administered programs, 
convened national and regional conferences to bring together 
State and local technology leaders, compiled and disseminated a 
well-researched library of best practices and put forward two 
national technology plans.
    Last year the Department of Education released the findings 
of the expert technology panel. Of the two exemplary and five 
promising programs that were identified, the Federal Government 
originally funded all seven. The Department's Challenge Grant 
Program, along with the National Science Foundation, made these 
and many other innovations possible.
    Other Federal initiatives are helping introduce 
technologies into schools of education so that our newest 
teachers will be effectively prepared to make technology a 
substantial partner in the learning process.
    And, of course, the E-Rate Program has resulted in a wiring 
of over 1 million classrooms, the vast majority of which are in 
high poverty communities.
    I hope you will conclude from my testimony that we are 
getting measurable results from educational technology. That we 
know what it takes to make new technology programs successful, 
and that the Federal Government must continue to provide 
leadership and funding without which this progress would not 
have occurred.
    I would further hope that as leaders you have the vision to 
realize that the progress we have made has prepared us for an 
entirely new level of leadership and funding. That it may be 
time to conceive of an education initiative on the scale of the 
Apollo program or the Genome project. Indeed, I would submit 
that the top rating given to education issues in every public 
opinion poll suggest that the American people have never been 
more ready to be captivated by such a vision.

                           PREPARED STATEMENT

    Within this decade it will be possible to develop the 
technologies and to expand the capacity of the educational 
system such that every day of school from kindergarten to 
college will be an intellectual adventure. It will be possible 
for our teachers to see clearly how each child is progressing 
and it will be possible to activate all the resources in 
school, at home and in our communities to ensure that no child 
is left behind.
    If we do this, then every other great goal we might set for 
this country will surely follow.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Margaret Honey

    My name is Margaret Honey and I am a Vice President at the 
Education Development Center, an educational not-for-profit, and I 
direct EDC's Center for Children and Technology. Our Center, 
established in 1980, was one of the first groups to undertake research 
and development on educational technology. I have been affiliated with 
the Center for 16 years and have been working in the education and 
technology field for more than 20 years. It is a pleasure to have an 
opportunity to address the committee.
    I was asked to speak to the question of what we now know about 
technology's effectiveness as a teaching and learning tool and how we 
might think about the role of the Federal government in this 
enterprise. I have divided my remarks into three sections, each of 
which addresses a specific question:
    1. What have we learned about the educational benefits of 
technology?
    2. What have we learned over several decades of experimentation 
about how to build quality educational technology applications?
    3. What should be the federal government's role in advancing 
educational technology?
                   benefits of educational technology
    After more than two decades of research on the benefits of 
educational technology we now have decisive evidence that technology 
use can lead to positive effects on student achievement.\1\ 
Specifically,
---------------------------------------------------------------------------
    \1\ 2000 Research Report on the Effectiveness of Technology in 
Schools. Software Information Industry Association. Washington, D.C.
---------------------------------------------------------------------------
  --In studies of large-scale statewide technology implementations, 
        these efforts have been correlated with increases in students' 
        performance on standardized tests.\2\
---------------------------------------------------------------------------
    \2\ Mann, D., Shakeshaft, C., Becker, J. and Kottkamp, R. West 
Virginia Story: Achievement Gains from a Statewide Comprehensive 
Instructional Technology Program. Milken Exchange on Educational 
Technology, 1999.
---------------------------------------------------------------------------
  --Software supporting the acquisition of early literacy skills--
        including phonemic awareness, vocabulary development, reading 
        comprehension, and spelling--can support student learning 
        gains.\3\
---------------------------------------------------------------------------
    \3\ 2000 Research Report on the Effectiveness of Technology in 
Schools. Software Information Industry Association. Washington, D.C.
---------------------------------------------------------------------------
  --Mathematics software--programs like Carnegie Learning's Algebra 
        Tutor, for example, that supports experimentation and problem 
        solving--enables students to embrace key mathematical concepts 
        that are otherwise difficult for many students to grasp.\4\
---------------------------------------------------------------------------
    \4\ Koendinger, K., Anderson, J. Pump Algebra Project: AI and High 
School Math. Human-Computer Interaction Institute, Carnegie Mellon 
University, 1999.
---------------------------------------------------------------------------
  --Scientific simulations, microcomputer-based laboratories, and 
        scientific visualization tools have all been shown to result in 
        students' increased understanding of core science concepts.\5\
---------------------------------------------------------------------------
    \5\ CEO Forum. Key Building Blocks for Student Achievement in the 
21st Century. Washington, D.C. June, 2001.
---------------------------------------------------------------------------
    In addition, we know that technologies offer teachers and students 
opportunities that would otherwise be extremely difficult to realize in 
classroom contexts. Assessment, information access, collaboration, and 
expression are four areas where educational technologies demonstrate 
particular promise--and there is a broad consensus among school 
reformers regarding the central importance of these issues for 
improving student achievement.
Assessment
    With respect to assessment, technologies have critical roles to 
play in helping educators to use data effectively and efficiently to 
improve instruction.\6\ Companies like Wireless Generation are 
pioneering the development of diagnostic software applications that 
teachers can use in their everyday work to collect learning data that 
can lead to direct improvement in instruction. These applications can 
now reside on handheld computers like Palm Pilots, making it possible 
for teachers to chart student progress over time, identify where a 
student is having trouble, and modify instruction to help the student 
succeed. If our goal is for schools to use data to enable all students 
to achieve, then these kinds of diagnostic assessment tools are 
essential in helping teachers to do this work effectively.
---------------------------------------------------------------------------
    \6\ Brunner, C. and Honey, M. Report to the Atlantic Philanthropic 
Trust. EDC Center for Children and Technology. July, 2001.
---------------------------------------------------------------------------
Information access
    During the past decade we have seen a tremendous growth in the 
range of archival materials that are available on the web. Digital 
archives have been and continue to be developed by museums, libraries, 
scientific and other archival institutions. These collections are among 
the most exciting resources driving educational interest in information 
and multimedia technologies. Collections as diverse as National Center 
for Supercomputing's Astronomy Digital Image Library and the holdings 
of the Louvre Museum have been digitized and provide classroom teachers 
and their students with access to artifacts and information previously 
available only to specialized scholars or academic researchers. They 
give teachers and students opportunities to work with an extraordinary 
array of authentic materials and up-to-date information that would not 
find their way into classrooms were it not for the growth and 
development of technologies.\7\ Access to this data literally gives all 
schools--regardless of their geography or wealth--the potential to have 
libraries of unparalleled collections and connections to the same 
materials that our nation's greatest universities have.
---------------------------------------------------------------------------
    \7\ Honey, M. et.al. (1996). Digital archives: Creating effective 
designs for elementary and secondary educators. Invited white paper 
prepared for the United States Department of Education. http://
www.ed.gov/Technology/Futures/honey.html
---------------------------------------------------------------------------
Collaboration
    Technologies offer many other opportunities to teachers and 
students. Consider, for example, the issue of collaboration. Teachers 
are the one professional group in our society that is largely isolated 
from colleagues during the working day. Phones in classrooms are 
uncommon at best and shared planning time for teachers is rare in most 
schools. Much of our work at the Center for Children and Technology has 
focused on using the communications capabilities of the Internet to 
develop new models for teacher professional development and 
collaboration that have the potential for providing teachers with 
networks of support.
    We have worked, for example, with the Library of Congress to 
develop the American Memory Fellows program.\8\ This program brings 
teams of teachers together in both virtual and face-to-face learning 
communities to develop, test, and publish creative classroom 
applications that make use of the Library's digitized collections in 
American History. Teachers learn how to work with primary-source 
archives that include photographs, pamphlets, films, and audio 
recordings from American history and culture. Technology makes access 
to these materials possible and enables teachers to work together to 
build lesson plans and curriculum for their classrooms.
---------------------------------------------------------------------------
    \8\  http://memory.loc.gov/ammem/ndlpedu/index.html
---------------------------------------------------------------------------
Expression
    Technologies also create new opportunities in which kids can 
express and communicate their ideas. It is no longer uncommon for 
schools to encourage reports in multimedia format or for students to 
build web resources that can be used by others. A team of fifth and 
sixth graders, for example, created a website called ``Online Math 
Applications'' which includes information and exploration of math in 
connection with music, stock market investments, travel, economic 
projections and history. They use online calculators, stories, 
problems, simulations and demonstrations to teach their peers. This 
site and hundreds more have been created by students participating in 
an academic contest called ThinkQuest.<SUP>TM</SUP> \9\
---------------------------------------------------------------------------
    \9\ http://www.thinkquest.org/
---------------------------------------------------------------------------
The importance of context
    There are thousands of examples of work being done in schools with 
technology that lead to important gains in student learning. What is 
most important, however, is that we recognize that technology will not 
result in measurable gains unless the school context is receptive and 
well organized for technology use. In more than 20 years of work, we 
have learned a single lesson over and over again--school context is a 
critical factor in determining the degree to which educators can 
creatively and deeply use technology. No matter how well designed the 
technology, how comprehensive the training program, and how creative 
individual teachers are, if they work in a context that is not 
supportive of and receptive to the use of technology for instructional 
purposes the technology will have little impact on students' 
learning.\10\
---------------------------------------------------------------------------
    \10\ Honey, M., Culp, K.M., & Carrigg, F. (2000). Perspectives on 
technology and education research: Lessons from the past and present. 
Educational Computing Research (23) 1.
---------------------------------------------------------------------------
    We have learned through our work with numerous school districts 
around the country, that if technologies are to be used to support real 
gains in educational outcomes, then five factors must be in place and 
these factors must work in concert with each other.\11\
---------------------------------------------------------------------------
    \11\ Honey, M., & McMillan-Culp, K. (2000). Scale and localization: 
The challenge of implementing what works. Paper presented at Wingspread 
conference, ``Technology's Role in Urban School Reform: Achieving 
Equity and Quality,'' Racine, WI., October 12-14, 2000.
---------------------------------------------------------------------------
    1. There must be leadership around technology use that is anchored 
in solid educational objectives. Simply placing technologies in schools 
does little good. Effective technology use is always targeted at 
specific educational objectives; whether for literacy or science 
learning, focus is the key to success.
    2. There must be sustained and intensive professional development 
that takes place in the service of the core vision, not simply around 
technology for its own sake, and this development must be a process 
that needs to be embedded in the culture of schools.
    3. There must be adequate technology resources in the school 
including hardware and technical support to keep things running 
smoothly.
    4. There must be recognition that real change and lasting results 
take time.
    5. And, finally evaluations must be conducted that enable school 
leaders and teachers to determine whether they are realizing their 
goals, and how to adjust if necessary.

                       EFFECTIVE SOFTWARE DESIGN

    Several decades of experimentation and research in developing 
educational software have also taught us some critical lessons. To be 
effective educational software must accomplish three things. It must:
  --Build upon what we know from research about the key areas of 
        knowledge acquisition, including both concepts and procedures, 
        which children must master. Carnegie Learning's Algebra Tutor 
        and Wireless Generation's Diagnostic Reading Assessment are 
        both examples of software applications that are substantially 
        grounded in research about how students learn algebra and how 
        they master early literacy strategies.
  --Address real challenges that teachers are facing, and make the task 
        at hand easier to accomplish. The most effective software is 
        always developed in collaboration with teachers and is based on 
        extensive research done in classrooms, to ensure both 
        usefulness and effectiveness. IBM's Reinventing Education 
        Partnerships are a very promising model in this regard.
  --Be applicable across multiple contexts and multiple curricula by 
        addressing core learning challenges, not curriculum specific 
        skills and tasks. It should not matter, for example, whether my 
        district uses a balanced literacy curriculum or one that 
        emphasizes teaching phonics. Effective educational software 
        should support the processes associated with learning how to 
        read and be applicable regardless of any specific instructional 
        approach.

                   THE ROLE OF THE FEDERAL GOVERNMENT

    The Federal role in educational technology is critical in two 
respects: leadership and funding. The U.S. Department of Education's 
Office of Educational Technology has provided critical leadership in 
helping promote a comprehensive vision for the effective use of 
technology in our schools. This office has defined and administered 
programs, convened national and regional conferences to bring together 
state and local technology leaders, compiled and disseminated a well-
research library of best-practices information, and put forward two 
national technology plans.\12\
---------------------------------------------------------------------------
    \12\ President's Committee of Advisors on Science and Technology, 
Panel on Educational Technology. ``Report to the President on the Use 
of Technology to Strengthen K-12 Education in the United States. 
1997.'' The National Educational Technology Plan. ``E-Learning: Putting 
a World-Class Education at the Fingertips of All Children.'' U.S. 
Department of Education. December, 2000. Web-Based Education 
Commission. The Power of the Internet for Learning: Moving From Promise 
to Practice. Report to the President and Congress of the United States, 
2000.
---------------------------------------------------------------------------
    The Federal Government has also been an essential partner in 
technology funding. Thirty-five percent of all educational technology 
funding has been federal. This is a remarkable figure when compared to 
the 6.6 percent that the federal government contributes overall to 
education funding.\13\ And the results have been pronounced. Last year 
the Department of Education released the findings of the Expert 
Technology Panel. Of the two exemplary and five promising programs that 
were identified, the federal government originally funded all seven. 
The Department's Challenge Grant Program along with the National 
Science Foundation made these and many other innovations possible. 
Other federal initiatives are helping introduce technology into schools 
of education so that our newest teachers will be effectively prepared 
to make technology a substantial partner in the learning process. And, 
of course, the E-Rate program has resulted in the wiring of over one 
million classrooms, the vast majority of which are in high poverty 
communities.\14\
---------------------------------------------------------------------------
    \13\ http://www.schooldata.com/pr22.html
    \14\ CEO Forum. Key Building Blocks for Student Achievement in the 
21st Century. Washington, D.C. June, 2001.
---------------------------------------------------------------------------

                               CONCLUSION

    I hope you will conclude from my testimony that we are getting 
measurable results from educational technology, that we know what it 
takes to make new educational technology programs successful, and that 
the Federal Government must continue to provide the leadership and 
funding without which this progress would not have occurred.
    I would further hope that the leaders in this room have the vision 
to realize that the progress we have made has prepared us for an 
entirely new level of leadership and funding--that it may be time to 
conceive of an education initiative on the scale of the Apollo Program 
or the Genome Project. Indeed, I would submit that the top rating given 
to education issues in every public opinion poll suggests that the 
American people have never been more ready to be captivated by such a 
vision.
    Within this decade it will be possible to develop the technologies 
and to expand the capacity of the educational system, such that every 
day of school--from kindergarten through college--will be an 
intellectual adventure tailored to each student's particular learning 
needs. It will be possible for our teachers to see clearly how each 
child is progressing, and it will be possible to activate all of the 
resources in school, at home, and in our communities to ensure that no 
child is left behind.
    If we do this, then every other great goal we might set for this 
country surely will follow.
    Thank you.

    Senator Harkin. Thank you, Dr. Honey. And now we will turn 
to Gail Maxwell of Griswold Community School District.
STATEMENT OF GAIL MAXWELL, TECHNOLOGY STRATEGIST, 
            GRISWOLD COMMUNITY SCHOOL DISTRICT, 
            GRISWOLD, IOWA, AND THE WAITT/HARKIN 
            INNOVATION TECHNOLOGY CHALLENGE GRANT
    Ms. Maxwell. Thank you. It is a pleasure to be here today 
to discuss the integration of technology in our schools. I am a 
technology strategist for the Griswold Community School 
District in Griswold, Iowa. It is a small rural consolidated 
district with approximately seven hundred students.
    A little over a year ago we received the Waitt Harkin 
Technology Challenge Grant. It is a 3-year grant in conjunction 
with the Walnut Grove Elementary School in Council Bluffs, Iowa 
and the Loess Hills Area Education Agency in Council Bluffs.
    The objective of our grant is to improve student learning 
through the effective use of technology in the primary grades 
in both a rural and urban setting. The key components of our 
grant are staff development to build a vision of what 
technology should be in our schools. Awareness and utilization 
of teaching strategies that create student-centered project-
based classrooms and the effective use of equipment and 
software.
    The objectives of our two elementary buildings in Griswold 
are to enhance reading comprehension and interactive and 
independent writing.
    When we began our grant we decided that we did not want to 
isolate students by putting just one student at a computer. We 
wanted to encourage hands-on learning and we wanted to develop 
higher learning/thinking skills. With this in mind, we 
purchased one laptop with wireless access for every two 
students so that they would work in pairs or small groups and 
software that was conducive to student-based, project-based 
learning.
    We have ongoing staff development, which is very important. 
We meet 1 day a month, at least, and often 3 to 4 days during 
the summer.
    My position is to provide the staff development for the 
teachers, assist them in planning and integration and be 
available daily in the classrooms with the teachers and 
students.
    The evaluation of our grant is done by the Metiri Group of 
Los Angeles, California. They are looking to establish a 
correlation between project activities and student learning. 
They are also measuring the impact of this project on the 
educator's vision for the role of technology in the curriculum, 
advances in teacher proficiency using teaching strategies 
involving technology and changes in the learning environment.
    We have had many successes in this first year of our grant. 
The most important success is the enthusiasm for learning shown 
by the students. They took immediate ownership and pride. They 
stay on Task Monger when using their laptops. Their reading 
levels are higher when they are engaged in accessing 
information with them. And their writing has become more 
proficient.
    The teachers began to do in-depth projects such as WebQuest 
involving research skills, collaboration and higher-level 
thinking.
    When we began this project, our objectives were to improve 
reading comprehension and writing skills.
    At the end of our first year, we saw growth not only in 
those areas, but also in what are called 21st century skills; 
collaboration, research skills, technology skills and student 
self-direction. These are now a focus for our grant and will be 
included in the evaluation. The students in the grant were far 
better in these skills than the students not involved in our 
grant, who only used a lab on a scheduled basis. What works for 
technology in the schools is having it readily available in the 
classrooms on a daily basis.
    One of the main obstacles that we met was time. It takes a 
lot of time for teachers to plan and create lessons and 
implement them fully in a day that is already very full for 
them.
    We also had an obstacle in time and resources for teachers 
to attend professional conferences and workshops or visit 
innovative sites integrating technology.
    Another obstacle that we met was seamless integration. The 
teachers often felt they were giving up necessary teaching to 
incorporate technology instead of using the technology to teach 
the necessary skills. This improved during the year and will 
continue to improve with time, use and further training.
    We will face our biggest obstacle at the end of the grant. 
We will have students that have had state-of-the-art technology 
available to them in their classrooms, but at the end of our 3 
years, we will be faced with obsolete laptops, software that 
needs to be upgraded and limited funds to carry on the project 
because of declining enrollment, cuts in State funding and 
looming budget cuts.
    Because of our successes and our obstacles, these are our 
recommendations for the Federal Government.
    Please assume a leadership role in providing the vision of 
what effective, seamless integration should be in the schools. 
Stress the importance of teaching 21st century skills in 
conjunction with basic learning. Continue to fund innovative 
projects, not just equipment and connectivity, but personnel 
and training. Then continue to fund those projects, if 
successful, so schools are not forced to discontinue them. 
Establish pilot sites throughout the country that effectively 
and seamlessly integrate technology in the classrooms. Provide 
beginning teachers entering the field with pre-service 
opportunities in technology integration. Continue to fund the 
E-Rate, which provides discounts for Internet and phone 
services and frees money that can be used for technology in 
other ways.
    Because of the funding of the Federal Government and The 
Waitt Family Foundation, we have many plans for our remaining 2 
years of the grant. We will continue to work towards that 
seamless integration of technology in our classrooms. We will 
publish our work, equalize the access of students that do not 
have computers at home, stay on the cutting edge of 
instructional technology and assist other schools in technology 
integration.

                           PREPARED STATEMENT

    We hope the Federal Government continues to provide the 
vision, leadership and funding in educational technology so 
that all schools can provide equal access to technology and 
that they use this technology correctly as a tool to enhance 
learning in the classroom.
    I invite any of you to visit our classrooms in Griswold to 
see technology integration in action.
    Thank you.
    [The statement follows:]

                   Prepared Statement of Gail Maxwell

    Mr. Chairman, and Members of the Subcommittee, it is a pleasure to 
be here today to discuss educational technology. I am a technology 
strategist for the Griswold Community School District in Griswold, 
Iowa, and am coordinating the Waitt/Harkin Technology Grant in our two 
elementary schools. Our district is a consolidated rural district with 
an enrollment of approximately 700 students. The Waitt/Harkin Grant is 
a three-year Technology Innovation Challenge Grant, matched by the 
Waitt Family Foundation. It is shared by Walnut Grove Elementary School 
in Council Bluffs, Iowa, and Lewis and Elliott Elementary Schools from 
the Griswold Community School District, and is in cooperation with the 
Loess Hills Area Education Agency of Council Bluffs, Iowa. We have just 
completed the first year of this grant. The project has created 
demonstration sites where best practices in technology utilization are 
integrated into primary classrooms in both rural and urban settings. In 
the Lewis and Elliott Elementaries the first year of the grant began 
with our multi-age classrooms, which are combination first and second 
grades. We will add third grade during the second year and fourth grade 
during the third year while maintaining the technology in the previous 
classrooms.
    The main objective of the grant is to improve essential student 
learning through the effective integration of technology into the 
existing curriculum. The purpose is to demonstrate the effective use of 
technology in the primary grades. There is not much research available 
to show the effectiveness of technology in primary grades so this grant 
is valuable in providing needed data.
    The key components of the grant are:
  --Staff Development to build a vision of what is possible
  --Awareness and utilization of teaching strategies that create 
        student centered, project based classrooms (Project-based 
        learning is a learner-centered teaching approach that draws on 
        aspects of task-based learning, project work, and self-
        instruction. This type of instruction is built around 
        activities or projects designed by the teacher or student.)
  --Effective use of equipment and software
    The objectives for Lewis and Elliott Elementary Schools are:
  --Students will engage in activities, which will enhance reading 
        comprehension.
  --Students will engage in activities, which will enhance interactive 
        and independent writing.
    Strategies have been developed to meet these objectives.
    Decisions for the grant were based on research done prior to 
implementation. In our research we found that there were arguments that 
technology use in the primary grades would cause isolation by putting 
students in front of computers to do skill-based software. Students at 
that age need socialization, hands-on learning, and the development of 
thinking skills. Taking that into consideration we provided one 
wireless laptop for every two students in our multi-age classrooms so 
they would work in pairs or small groups. We wanted to make sure the 
technology was not used by itself but as a tool to improve student 
learning. Our major focus is student-based, project-based learning so 
the software available is conducive to this focus. The laptops are 
wireless so the students have access to the Internet, the server, and 
the printers from anywhere within the buildings. This access makes a 
large change in the learning environment, making integration of 
technology much easier. We have digital cameras, video cameras, 
scanners, video projection units, and microscopes available for the 
classrooms. With all of this state of the art technology available, 
hands-on learning and the development of thinking and problem solving 
skills are encouraged. The most important key to success in this 
project, though, is on going staff development to create the vision of 
seamless technology integration. My position is provided by the grant 
to provide this staff development and to assist the teachers in 
planning and integrating the technology correctly into the curriculum 
and their classrooms. By being available to the teachers daily I can 
create a supportive safety net for teachers and create the staff 
development as the staff is ready for the next step in technology 
integration. During the first year of the grant I have taken a lead 
role in the classroom in developing the vision and modeling instruction 
that integrates technology. During the second year my role will be a 
team teacher for the classes and in the third year I will be a 
consultant while still providing staff development and support.
    The Metiri Group, a technology policy, research and consulting 
firm, from Santa Monica, CA, is evaluating the grant. The major focus 
of the evaluation will be to establish a correlation between the 
project activities and student learning in the primary grades. It will 
also measure the impact of the project on educators' vision for the 
role of technology within the curriculum, advances in teacher 
proficiency using teaching strategies involving technology, and changes 
in the learning environment.
    We have had a very successful first year. At first it was difficult 
for the teachers to integrate the technology into their lessons. The 
teachers were receptive to the technology but they considered it 
something ``extra'' to ``add'' to their day. They did not use the 
laptops unless I was in the room to lead the lesson. They soon became 
more comfortable with the technology available in their rooms and 
realized it could enhance their lessons and provide valuable resources. 
This happened quickly because the students learned rapidly. It took 
these first and second graders little time to learn to use the tap and 
scroll features of a track pad, to access programs and the Internet, 
and to save work to a folder on the server. They took immediate 
ownership of the laptops, showing pride, enthusiasm and great care in 
their use of them.
    The teachers began to take ownership by planning lessons that 
integrated the technology. They learned to look at their curriculum and 
objectives and plan ways technology could enhance and extend a lesson 
in ways that would not be possible without technology. By the end of 
the school year you could walk by at almost anytime and see the laptops 
being used in small groups, centers, or whole group lessons as 
comfortably as pencil and paper. The teachers did more in-depth 
projects involving research skills, collaboration, and higher-level 
thinking. Webquests, which are activities in which information that 
learners interact with comes from resources on the Internet and 
encourages critical thinking, cooperative learning, authentic 
assessment, and technology integration, were often used. Students were 
no longer being sent to the lab or a single classroom computer to play 
a game or ``do'' a program. The learning became authentic with specific 
tasks tied to the curriculum and its standards.
    When we began this project our objectives were to enhance reading 
comprehension and writing. At the end of the year we saw student growth 
in what are called 21st Century Skills:
  --Collaboration
  --Research skills (Accessing, Processing and Communicating 
        Information)
  --Technology skills
  --Student self-direction
  --Paraphrasing at high levels
    These will now become a focus for the grant and its evaluation. We 
also saw an enthusiasm for learning. The students remained on task for 
longer periods of time when using the laptops. When the students were 
engaged in accessing information with their laptops their reading 
levels were higher. We also saw the students working together to solve 
problems. At first, working in pairs resulted in one student dominating 
the learning and in arguments. By the end of the year we saw 
collaboration and problem solving with each pair or group.
    We contribute the success of the program to an enthusiastic team 
that works together and we believe this is a necessary element of 
successful technology use in the schools:
  --Teachers connect technology, instructional strategies, and content 
        to student growth.
  --The technology strategist partners with classroom teachers in 
        identifying resources, planning, teaching and evaluation of 
        lessons, projects, and activities.
  --The administration provides leadership and support for the project, 
        monitors progress, makes suggestions and recommendations, and 
        keeps the project objectives on track.
  --The technology coordinator maintains the infrastructure and 
        hardware/software performance.
  --The Area Education Agency Consultants assist in staff development 
        planning and implementation and act in a consulting capacity.
  --The parents provide support for the grant goals and objectives by 
        having a high degree of involvement.
    This project would not have been successful, or even possible 
without the funding of the federal government and the Waitt Family 
Foundation.
    The main obstacle we encounter is time. Teachers have so many 
demands on them and are expected to do more each year in the same 
amount of time. It is hard to find time to plan and create lessons and 
implement them fully. We are also faced with finding the time and 
resources for our teachers in our rural area to attend professional 
conferences and staff development opportunities or to visit innovative 
sites that integrate technology effectively. Even though the teachers 
feel they are doing a good job of using the technology correctly they 
know they are not doing it as seamlessly as possible. They still feel 
they are ``giving up'' some necessary teaching to incorporate the 
technology. This seamless integration will become easier with use, but 
the teachers also need to be able to increase their knowledge base by 
attending conferences and workshops and by visiting other innovative 
classrooms.
    Another obstacle we will face will be at the end of our three-year 
grant. We will have students who have had the opportunity of having 
state of the art technology readily available in their classrooms. When 
they enter 5th grade in 2003 they will not have laptops in their 
classrooms. They will need to go to the computer lab. During this first 
year of the grant we have found that computer labs are not nearly as 
conducive to technology integration. The teachers involved in the grant 
have realized it is much easier and more successful to integrate the 
technology when it is available at all times in their classrooms. 
Computers in the classroom are accessible when students and teachers 
need them (you can not always schedule a lab when it is needed), they 
become part of the learning environment, they allow flexibility, you 
can take advantage of teachable moments, and they are easy to monitor 
by teachers. By the end of the school year I saw a large gap in 
technology skills between the students involved in the grant who had 
access to computers at all times and those students not in the grant 
who had to use the lab. We need to continue to provide technology in 
the classrooms, as well as staff development and leadership in 
technology integration. It would be worthwhile to provide this 
technology in all of our classrooms and then track these first graders 
throughout their education to see the difference it has made in 
learning.
    At the end of our three years we will also be faced with replacing 
or updating obsolete laptops and upgrading software. With declining 
enrollments, cuts in state funding (we lost approximately $30,000 in 
technology funds for 2001-2002), and looming budget cuts, it will be 
hard to maintain this worthwhile project. We will have collected data 
for the use of technology in primary classrooms but we need to maintain 
the use in these classrooms by keeping the technology current. Grants 
are great but what happens when they run out and the districts cannot 
afford to continue the project?
    From our successes and from our obstacles I offer the following 
suggestions for the federal government:
  --Assume a leadership role in providing the vision of what effective, 
        seamless integration of technology should be in the schools. 
        Stress the importance of teaching 21st Century skills in 
        conjunction with the basic learning needed in schools.
  --Continue to fund innovative projects, with funding being provided 
        not only for the equipment but also for personnel and staff 
        development to assure the success of the project. Then continue 
        to fund those projects, if successful, so that schools are not 
        forced to discontinue them for lack of money.
  --Establish pilot sites throughout the country that effectively and 
        seamlessly integrate technology.
  --Provide beginning teachers entering the field with pre-service 
        opportunities in technology integration.
  --Continue to fund the e-rate, which provides discounts for Internet 
        and phone services and frees up money that can be used for 
        technology in other ways.
    In conclusion, I want to share our future plans for the grant. We 
will continue to work towards seamless integration of technology, 
publish teachers' projects and student work on the Internet, equalize 
the access of students who do not have computers at home, stay on the 
cutting edge of instructional technology, and share our work and assist 
other schools in technology integration. We hope the federal government 
continues to provide the vision, leadership and funding in educational 
technology so that all schools can provide equal access to technology 
and that they learn to use the technology correctly as a tool to 
enhance learning.

    Senator Harkin. Thank you, Ms. Maxwell. Now we will turn to 
Cheryl Williams, president of The International Society for 
Technology in Education. Ms. Williams.

STATEMENT OF CHERYL WILLIAMS, PRESIDENT, INTERNATIONAL 
            SOCIETY FOR TECHNOLOGY IN EDUCATION (ISTE)

    Ms. Williams. Thank you, Mr. Chairman, for the opportunity 
to address you today to share my thoughts about the importance 
of strong Federal leadership in support of education.
    Senator Harkin. Cheryl, would you pull in that mike and 
just speak right into it?
    Ms. Williams. OK, my teacher voice was not working. Is that 
better?
    Senator Harkin. That is good.
    Ms. Williams. I am currently president of the International 
Society for Technology and Education or ISTE. I am also vice-
president for Education at the Corporation for Public 
Broadcasting.
    For 25 years I have been involved in education; the last 15 
of which were around issues surrounding education technology 
and school improvement. Most recently, as director of Education 
Technology Programs at the National School Boards Association, 
and as chairman of the Board of The Consortium for School 
Networking or COSN.
    Today, however, I am testifying solely in my capacity as 
president of ISTE. ISTE and its affiliates represent a large 
and diverse membership that includes more than 75,000 teachers, 
technology coordinators, administrators and other education 
technology professionals.
    Our mission is to promote appropriate uses of information 
technology to support and improve learning, teaching and 
administration in K-12 education and colleges of education.
    Today I will highlight five issues that ISTE would like you 
to consider as you prepare to make appropriations for fiscal 
year 2002 and beyond.
    First ISTE strongly supports full funding for the new 
Federal Education Technology Block Grant. Over the past several 
years, strong and sustained Federal investment in education 
technology has played a critical role in the deployment of 
hardware, software, Internet connections and technology 
training to schools and libraries nationwide.
    Two programs that have been of great assistance are the 
Technology Literacy Challenge Fund and the Technology 
Innovation Challenge Grant. This Federal involvement has paid 
off. During this same time period student-to-computer ratios 
have improved from 12 to 1 in 1998 to 7 to 1 as of 2000. Under 
both versions of the House and Senate ESEA Reauthorization 
bills, a number of Federal education technology programs, 
including the Technology Literacy Challenge Fund and the 
Technology Innovation Challenge Grant, would be consolidated 
into a single block grant and authorized at $1 billion 
annually. It is ISTE's view that the education technology block 
grant programs in both versions of the ESEA retain the same 
goals as their predecessors. When this subcommittee considers 
appropriations for the new block grant, we urge you to continue 
Congress's critical commitment to 21st century learning and 
fully fund the Education Technology Block Grant.
    Second, the Preparing Tomorrow's Teachers to use Technology 
Program or PT3 has been very successful in building models to 
help pre-service teachers learn to incorporate technology into 
education and should be authorized and fully funded. ISTE 
believes that it is vital that the new generation of educators 
receive ample pre-service training in the basics of technology 
operation and curricula integration before they enter the 
classroom. The PT3 Program provides competitive partnership 
grants to promote collaborations among pre-service teachers, 
higher education and real world classrooms.
    In 1999 ISTE, in collaboration with education groups and 
others, was awarded PT3 funds to develop a series of education 
technology standards for students, teachers, and school 
administrators known as The National Education Technology 
Standards Project or NETS. For both students and teachers, the 
NETS project provides guidance on the technology skills that 
each should have acquired at various points in their education 
and professional development. At least 26 States already have 
adopted these standards.
    The final component of the NETS project, Technology 
Standards for School Administrators, will be released this 
fall.
    ISTE fervently hopes that the final ESEA package will 
contain a separate authorization for PT3. We strongly urge this 
subcommittee to fully fund this program.
    Third, the success in getting technology to the classroom 
means that we need increased funding for broader research on 
education technology. ISTE believes that OERI should be 
directed to pursue a new research agenda that will deepen 
educators' understanding of cognition and the impact of 
technology on the learning process.
    Further, ISTE proposes the Federal Government establish an 
education technology clearinghouse for research and best 
practices.
    Fourth, ISTE believes that three other education technology 
programs merit full funding. The Ready to Learn Program 
provides funding for research-based non-commercial education 
television programming and online resources for young children. 
Ready to Learn Program funds have helped launch such critically 
acclaimed programs as Sesame Workshops, Dragon Tales and WGBH 
in Boston's Between the Lions. Also the Star Schools Program 
has provided distance education opportunities to more than two 
million students in six thousand schools nationwide.
    And finally, the Community Technology Centers Program 
assists low-income urban and rural communities to gain access 
to technology by providing grants to public housing facilities, 
community centers and libraries.

                           PREPARED STATEMENT

    Fifth and last, the E-Rate Program has been extremely 
successful and should be maintained in its current structure. 
The E-Rate Program has already provided over $6 billion in 
discounts on telecommunications services, Internet access and 
internal connections to public and private schools and public 
libraries nationwide. The E-Rate has helped ensure that 
virtually every library and school building has at least one 
Internet connection and that 77 percent of all public school 
classrooms have Internet access. And it has done all this 
without receiving any Federal funds, relying instead on the 
Universal Service Fund. We request that your Subcommittee not 
include in your Bill any language that would adversely impact 
the E-Rate or its funding stream.
    Thank you again for this opportunity to address you today. 
I am available to answer any questions you may have.
    [The statement follows:]

                 Prepared Statement of Cheryl Williams

    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to address you today to share my thoughts about the 
importance of federal support for education technology. My name is 
Cheryl Williams, and I am President of the International Society for 
Technology in Education--ISTE. I am also Vice-President for Education 
at the Corporation for Public Broadcasting. For twenty-five years, I 
have been involved with issues surrounding education technology and 
public school improvement. In my previous position as Director of 
Educational Technology Programs for the National School Boards 
Association, I collaborated with school district administrators and 
school board members to plan and implement education technology 
programs. Additionally, I oversaw numerous education technology-related 
publications and organized the annual Technology + Learning Conference, 
one of the largest annual education technology convenings in the 
country. While with NSBA, I also served as Chairman of the Board for 
the Consortium for School Networking (CoSN). In my current position 
with the Corporation for Public Broadcasting, I oversee the development 
and coordination of the Corporation's educational projects in 
conjunction with partners from across the learning community. Today, I 
am testifying solely in my capacity as President of ISTE.
    One of the highlights of my career was my recent election as 
President of ISTE, the leading organization for education technology 
professionals. ISTE and its affiliates have a large and diverse 
membership that includes more than 75,000 teachers, technology 
coordinators, administrators, and other ed-tech professionals. Our 
mission is to promote appropriate uses of information technology to 
support and improve learning, teaching, and administration in K-12 
education and colleges of education. In furtherance of this mission, we 
have placed ourselves at the forefront of the technology standards 
movement through our National Educational Technology Standards Project 
(NETS), which has developed a series of influential standards for 
student achievement, teacher skills, and the academic environment. We 
also provide research, evaluation, and consulting services to school 
districts, public agencies, private foundations, and universities. 
Finally, ISTE has been a strong advocate on Capitol Hill for the use of 
technology in teaching and learning because we believe that federal 
leadership in this area is crucial if students, educators, and 
administrators are to reap the full benefits of the Information Age.
    Today, I will highlight five issues that ISTE would like you to 
consider as you prepare to make appropriations for fiscal year 2002 and 
beyond.
    First, ISTE strongly supports full funding for the new federal 
educational technology block grant.--Over the past several years, 
strong and sustained federal investment in education technology has 
played a critical role in the deployment of hardware, software, 
Internet connections, and technology training to schools and libraries 
nationwide. In the past three years alone, Congress has appropriated 
nearly $1.7 billion for the Technology Literacy Challenge Fund (TLCF) 
and the Technology Innovation Challenge Grant (TICG), two federal 
programs that support school district efforts to develop technology 
plans, acquire hardware and software, engage in teacher training, and 
create innovative technology applications. And this federal involvement 
has paid-off: during this same time period, student to computer ratios 
have improved from 12 to 1 in 1998 to 7 to 1 as of 2000. Teacher access 
to professional development on technology has also improved: as of 
1999, over 90 percent of all teachers have access to some technology-
related professional development.
    Beyond mere statistics, though, these programs have had a profound 
affect on the school districts that have been fortunate enough to 
receive grants:
  --In Phoenix, Arizona, a grant from the Technology Innovation 
        Challenge Grant (TICG) program funded an ``Assessment 
        server''--an online resource that allows teachers to construct 
        customized tests to provide students immediate feedback. This 
        classic ``drill and practice'' application turned out to be 
        particularly useful in teaching ESL students, who oftentimes 
        are afraid to participate in class and thus may not receive the 
        special attention that they need. Because of this program, 
        these students are now receiving consistent feedback and many 
        are now earning passing grades for the first time.
  --Funds from a TICG grant have also launched Project Gen Y in 
        Olympia, Washington, an innovative professional development 
        project that allows students and teachers to collaborate on 
        developing a technology-enriched lesson plan. Through Project 
        Gen Y, mentor teachers work with students to develop 
        technology, communication, and project management skills, and 
        students then work with one of their regular teachers to 
        develop a lesson plan. Students in grades 3-12, working for a 
        semester or a year, have completed more than 3,000 projects, 
        spanning all subject areas. In this student-centered model, 
        students gain advanced skills in leadership, communication, and 
        critical thinking, as well a deep familiarity with the subject 
        content, while their teachers learn technical skills and new 
        teaching methods.
  --In New York, a Technology Literacy Challenge Fund (TLCF) grant 
        funded Project Accelerate, which put New York's state 
        educational standards online in a form accessible to teachers, 
        and tied them to a series of online courses aimed at preparing 
        teachers to use these standards. The online courses include 
        streaming video and interactive modes, and are linked to 
        curriculum and lesson plans. New features include web authoring 
        tools, student tutorials, and survey instruments, with more are 
        being added all the time. Through Project Accelerate, teachers, 
        administrators, students and parents, from public schools and 
        private schools, can interact with one another, and improve the 
        learning experience for everyone.
  --In northern Pennsylvania, the Jersey Shore Area School District 
        used TLCF funds to increase parental involvement and tailor 
        curriculum to individual students. Parents can check their 
        children's progress on the Internet, using a secure online 
        grade book, starting with the 2001-2002 school year. Parents 
        also have ready access to the teachers via email, voicemail, 
        and a special Homework Hotline.
  --One of the most innovative school computing implementations in the 
        country came from state funding to the Lemon Grove School 
        District in California. In this district with a high number of 
        ESL and at-risk students, technology has freed teachers to 
        teach and students to learn--and student standardized test 
        scores in math and reading have risen significantly as a 
        result. Many of the biggest gains have come from students who 
        originally had some of the lowest test scores. Lemon Grove's 
        success has come from involving parents, teachers, and 
        students. Extensive staff development has prepared teachers to 
        use the technology, developing web-based instruction and 
        building research sites for students. Parents can access 
        lessons, assignments, and school news, through inexpensive 
        server-based thin-clients that work on a wide variety of 
        devices--computers, hand-held devices, and others. And 
        students--with greater access to technology, and a trained 
        teaching staff--are using technology to learn. In Lemon Grove, 
        even first graders are creating PowerPoint presentations and 
        giving them to other children.
    Under both versions of the House and Senate Elementary and 
Secondary Education Act (ESEA) reauthorization bills that the House-
Senate Conference Committee is considering currently, a number of 
federal education technology programs, including the TLCF and the TICG, 
would be consolidated into a single block grant and authorized at $1 
billion annually. It is ISTE's view that the education technology block 
grant programs in both the House and Senate versions retain the same 
goals as their predecessor programs: equipping our nation's schools 
with advanced technology and affording them opportunities to develop 
innovative technology strategies and programs to improve teaching and 
learning. We have come a long way in the past decade but the task is 
far from complete. Current teachers continue to have insufficient 
familiarity and comfort with using technology in the classroom and 
limited ability to integrate Internet resources into the curriculum. 
Most teachers with more than 10 years' experience received little or no 
college preparation to effectively utilize technology in the classroom. 
When this Subcommittee considers appropriations for this new block 
grant, we urge you to continue Congress' critical commitment to 21st 
century learning and fully fund the education technology block grant.
    Second, the Preparing Tomorrow's Teachers to use Technology 
program--PT3--has been very successful in building models to help pre-
service teachers learn to incorporate technology into education, and 
should be authorized and fully funded.--Even with the great strides 
that schools and libraries have made in acquiring adequate hardware and 
software and connecting to the Internet, the full benefit of education 
technology cannot be realized if teachers are not trained to use 
technology and to integrate it into their daily classroom activities. A 
1999 survey by the U.S. Department of Education's National Center for 
Education Statistics showed that nearly two-thirds of all teachers felt 
that they were not prepared or only somewhat prepared to use technology 
in their teaching. With 2.2 million teachers expected to be hired over 
the next decade to fill new positions and replace retiring teachers, 
ISTE believes that it is vital that this new generation of educators 
receive ample pre-service training in the basics of technology 
operation and curricular integration before they enter their 
classrooms.
    The federal government has already demonstrated that it recognizes 
this need through its dedication of substantial resources to the 
Preparing Tomorrow's Teachers to Use Technology (PT3) program. 
Established as an unauthorized program in 1999 and funded at $275 
million over the past three fiscal years, the PT3 program provides 
competitive grants to partnerships of school districts, colleges of 
education, states, industry and others to support innovative programs 
that promote collaboration among pre-service teachers, higher 
education, and real-world classrooms. The program is focused on 
problems identified by research, guided by comprehensive evaluation, 
and devoted to developing scalable models of effective uses of 
technology to teach.
    ISTE, as a recipient of a PT3 grant, knows first-hand the value of 
this federal investment. In 1999, ISTE in collaboration with education 
groups, curriculum organizations, government entities, foundations, and 
corporations, was awarded PT3 funds to develop a series of education 
technology standards for students, teachers, and school administrators, 
known as the National Education Technology Standards project (NETS). 
For students, the NETS project created profiles of technology-literate 
students at key developmental points--e.g. grades PreK-2, grades 3-5--
that describe the technology competence that students should exhibit at 
the completion of each grade. Similarly, the NETS standards for 
teachers include standards for pre-service teacher education, which 
provide guidance on the skills that they should have acquired at 
various points in their education. For instance, upon completion of the 
general preparation component of their program, pre-service teachers 
should be able to use content-specific tools to support learning and 
research, and use productivity tools for collaborative work. At least 
23 states already have adopted these standards and numerous 
universities use these standards in their accrediting processes. The 
final component of the NETS project, technology standards for school 
administrators, will be released this fall. Although still a work in 
progress, the new NETS standards will guide administrators in 
overseeing and implementing education technology: developing a 
technology plan, basing decisions on sound data, and confronting the 
social and ethical implications of technology applications.
    More typically, though, PT3 grant recipients are consortia of local 
school districts and colleges of education that use these funds to 
develop model pre-service professional development programs. The 
University of Northern Iowa, for example, received a PT3 grant to 
video-document classroom teachers, and allow pre-service teachers to 
study, via streaming video, the classroom teachers in action. The pre-
service teachers then evaluate their own ability to use technology in 
the classroom using the NETS standards as a benchmark. Another example 
comes from Mississippi, where a PT3 grant funded Project T-n-T, which 
is designed to foster the relationships between pre-service teachers at 
Mississippi State University and rural public schools. Project T-n-T 
encourages pre-service teachers and supervising teachers to collaborate 
on effective uses of technology in the classroom and produce video 
simulations and online teacher handbooks on best practices. Finally, 
each year in rural northwestern Pennsylvania, a PT3 grant to the ADEPTT 
Consortium of three public universities allows more than 1,500 pre-
service teachers gain competencies in video conferencing, databases, 
and the use of the Internet in teaching.
    Since its birth in 1999, PT3 has been operated by the U.S. 
Department of Education as an unauthorized program and has been 
generously supported by Congress during the appropriations process. 
During this year's ESEA reauthorization debate, the Senate adopted in 
Committee an amendment offered by Senators Jeff Bingaman and Pat 
Roberts that would separately authorize the program for 6 years with an 
authorization level of $150 million. ISTE fervently hopes that the 
final ESEA package that emerges from the House-Senate Conference will 
contain this separate authorization. We also strongly urge this 
Subcommittee, when it sets its fiscal year 2002 appropriations level, 
to take into account the pressing need for PT3 as well as the 
impressive record of achievement it has built in its short history, and 
fully fund this program.
    Third, the success in getting technology to the classroom means 
that we need increased funding for broader research on education 
technology.--Since education is ordinarily not a for-profit enterprise, 
the federal government must take upon itself the responsibility for the 
majority of education research. The federal government has tasked the 
Office of Education Research and Improvement (OERI) with the 
responsibility of conducting in-depth studies of classroom resources 
and education improvement programs. Last year, OERI received an 
appropriation of $382.1 million to run its network of research 
institutes and regional education laboratories, operate the National 
Center for Education Statistics, prepare and administer the National 
Assessment of Education Progress survey, and disseminate research via 
the National Library of Education and the Education Resources 
Information Clearinghouse.
    With OERI expected to be reauthorized this year, ISTE is compelled 
to seize on this opportunity to acknowledge the important contributions 
to education research that OERI's regional laboratories and research 
institutes have made, and to advocate for continued federal support for 
it through the appropriations process. During the coming 
reauthorization process, ISTE also intends to lobby for Congress to 
mandate that OERI pursue a new research agenda that will deepen 
educators' understanding of cognition and the impact of technology on 
the learning process, and further their ability to develop and evaluate 
new education practices. Further, ISTE will propose that the federal 
government establish an education technology clearinghouse for research 
and best practices, so that local and state-level educators have access 
to the latest research and most effective instructional models.
    A strong research agenda is key to fully exploiting the potential 
of technology to transform education. Therefore, ISTE supports funding 
specific research and dissemination of results and best practices.
    Fourth, the Ready to Learn, Star Schools and Community Technology 
Centers programs represent excellent and varied uses of technology to 
deliver education and deserve continued support.--ISTE would be remiss 
if it not pay tribute to three other programs that foster the use of 
technology in teaching and learning, that we believe deserve to be 
reauthorized separately, and that merit full funding: the Ready to 
Learn program, the Star Schools program, and the Community Technology 
Centers program. The Ready to Learn program, which received 
appropriations of $16 million in each of the last two fiscal years, 
represents Congress' continuing investment in the development of 
research based, non-commercial, education television programming and 
online resources for young children. Ready to Learn program funds have 
helped launch such critically acclaimed programs as Sesame Workshop's 
Dragon Tales and WGBH in Boston's Between the Lions, as well as aided 
PBS's efforts to create a series of high-quality interactive online 
resources for kids, and materials for adults to use to supplement PBS 
broadcast programming. The Star Schools program, which has provided 
distance education opportunities to more than 2 million students in 
6,000 schools nationwide, funds the use of satellites, cable, and the 
Internet to provide normally inaccessible education content to small 
rural and urban schools. For the current fiscal year, Congress 
appropriated $59 million for this program and we believe that it should 
be fully funded in fiscal year 2002. Finally, the Community Technology 
Centers program assists low-income urban and rural communities to gain 
access to technology by providing grants to public housing facilities, 
community centers and libraries. Despite its considerable success, 
efforts have been made to either eliminate it or transport it from the 
U.S. Department of Education to the Department of Housing and Urban 
Development. We applaud the efforts of Senator Barbara Mikulski to 
separately authorize this program and expand its funding. ISTE believes 
that these three programs are time-tested and worthy of continued 
federal support.
    Fifth and last, the E-Rate program has been extremely successful 
and should be maintained in its current structure.--By virtually any 
objective measure, the E-Rate is a success story. During its first 
three years of existence, the E-Rate program has provided over $6 
billion in discounts on telecommunications services, Internet access, 
and internal connections to public and private schools and public 
libraries nationwide. The FCC has estimated that the program has 
leveraged an additional $4 billion for infrastructure investments from 
state and local governments. In each of the program's first three years 
demand for its discounts has steadily increased, with $5.2 billion in 
discount requests for Year 4 alone. The E-Rate has helped ensure that 
virtually every library and school building has at least one Internet 
connection, and that 77 percent of all public school classrooms have 
Internet access. And it has done all of this without receiving any 
federal funds, relying instead on the universal service fund.
    Over the past six months, the Administration has advocated that the 
program's list of services eligible for support be expanded to include 
software and professional development, even though the program is 
already oversubscribed for services that are currently eligible. 
Additionally, the Administration suggested that the program be 
consolidated with other federal education technology programs, thus 
turning it into a formula grant program. Since ISTE is convinced that 
the key to this program's success lies in its stable funding stream, we 
adamantly oppose any such destabilizing changes. We request that this 
Subcommittee follow the lead of the House Appropriations Committee in 
its Commerce Justice State Appropriations bill and not include in your 
bill any language that would adversely impact the E-Rate.
    Thank you for this opportunity to address you today. I am available 
to answer any questions of the Committee.

    Senator Harkin. Thank you very much, Ms. Williams. Now we 
turn to Thomas Gann, Director of Strategic Alliances for Global 
Education Research of Sun Microsystems, Incorporated. Mr. Gann.

STATEMENT OF THOMAS GANN, DIRECTOR, STRATEGIC ALLIANCES 
            FOR GLOBAL EDUCATION RESEARCH, SUN 
            MICROSYSTEMS, INCORPORATED

    Mr. Gann. Thank you, Mr. Chairman, for holding this 
hearing. I appreciate your leadership on human resources and 
education issues, and I also appreciate the interest of the 
Committee in general.
    Today, Sun Microsystems is a $20 billion global company 
focused on providing network solutions in the area of hardware 
and software.
    We have come a long way since 1982 when we were founded by 
four graduate students, two from Berkeley and two from 
Stanford. In those days we were making high-performance desktop 
computers for the education and research markets. Our computers 
from day one came optimized for the Internet and, in fact, 
education has been at the core of everything we have been doing 
since then.
    Today, Sun is fully committed to the K-12 market. In 
particular, we want to ensure that this country's future 
workers, our kids, get the best possible training moving 
forward. You know the key is that the information technology 
industry depends on human capital. So investing in human 
capital is profoundly in the national interest and certainly in 
the interest of information technology industries.
    Today, I am here to discuss what is working and what can be 
done better to meet the information technology needs of our 
schools, teachers, and students. Today, the United States has 
made significant headway in bringing access to computer 
technology to schools throughout the nation. According to 
NetDay, 8 out of 10 teachers think that information technology 
is helping students do a better job of learning. This is the 
good news.
    The bad news is that the current model of educational 
computing putting traditional computers in every classroom or 
on every desktop can also impose significant drains on 
resources in terms of cost, maintenance, and teaching time.
    For example, the same NetDay survey found that two out of 
three teachers believe that the Internet is not very well 
integrated into their classrooms. By not taking full advantage 
of the Internet or web-based learning, schools can get bogged 
down with expensive hardware, software, continual upgrades, 
expensive technical support and a constant need for teacher 
retraining. These are expenses that even rich schools have 
trouble keeping up with.
    In private business, for example, one computer professional 
is responsible for servicing 50 to 100 computers. In schools, 
each professional is responsible for servicing between 700 to 
1,000 computers. This is an impossible task and it forces too 
many teachers to spend too much valuable time sorting out 
computer problems when they should be spending their time 
teaching.
    While personal computers have and will continue to have an 
important role to play, we believe that a good deal more 
attention should be placed on building long-term, reliable 
back-end architectures focusing on the benefits of centralized 
technology and networking of the district's computing systems. 
This, in fact, will facilitate a good deal of communication and 
collaboration among parents, teachers and students. The private 
sector is already doing this, that is, moving to this model and 
the results have been very good in terms of improved 
productivity. This anytime/anywhere computing model relies upon 
open systems architecture in which information is accessed and 
delivered via the Internet. Any number of devices, PC's, 
inexpensive network terminals and even cell phones, can access 
this system and it all works very well because it is based on 
the open standards of the Internet.
    The other advantage of this system is that technology 
maintenance can be handled at the backend at the school 
district level. This further allows teachers to get out of the 
business of worrying about technology and back into the 
business of worrying about teaching.
    The other good news, like in business, entire IT 
departments now can be managed outside of the school by telecom 
firms or other service providers; thus, further allowing 
schools to focus in on their core competencies.
    Now we believe the Federal Government really does have a 
significant and powerful role to play in making incentives that 
help Internet resources be widely and effectively deployed in 
schools.
    First, the Federal Government should partner with the 
States' school districts and the private sector to develop a 
clearinghouse of best IT practices. Thus, schools anywhere 
around the country can get the benefit of learning from other 
school districts.
    Second, all levels of government currently spend 2 percent 
of their education dollars on technology. We think that number 
should be doubled, something closer to about 5 percent.
    Third, Sun strongly supports a recommendation made by The 
Computer Communications Industry Association to create a system 
of national digital school districts. These projects would be 
largely modeled on similar projects that have worked quite well 
in California and also Pennsylvania. These demonstration 
projects would provide funding for the implementation of smart 
computing architectures in selected schools around the country. 
Best practices learned from these demonstration projects could 
then be used to improve the performance of information 
technology throughout all of our schools in our nation.

                           PREPARED STATEMENT

    Fourth, we urge all levels of government to support 
policies that promote the use and implementation of open 
architecture technologies in schools. This will ensure that 
schools do not get locked into using any one technology made by 
any particular company. This will ensure further that schools 
have as many technology options as possible moving forward, and 
in fact, in the private sector, we see the trend towards open 
systems really growing and it is working well and it is very 
inexpensive.
    In conclusion, I would like to thank the committee for 
giving me a chance to spend time talking about these very 
important issues and I look forward to answering any questions 
that I might be able to help on. Again, thank you.
    [The statement follows:]

                   Prepared Statement of Thomas Gann

    Sun Microsystems, Inc., would like to thank the Subcommittee on 
Labor, Health and Human Services, and Education as well as the 107th 
Congress for its commitment to improving America's K-12 education 
system. As Congress moves to finalize the Elementary and Secondary 
Education Act in Conference Committee, it is clear that the opportunity 
to achieve significant progress toward improving our country's 
educational system is now a reality. As focus shifts to the 
appropriations process, the work of this committee will become pivotal 
to the long-term success of the Education Act and to the realization of 
meaningful education reform.
    Sun believes that technology can and should play a bigger role in 
the education of America's children, and has endorsed the report of the 
bi-partisan congressional Web-based Education Commission. To that end, 
I am here today to discuss what is working, and what can be done to 
better meet the information technology needs of our schools, teachers 
and students.

                        THE NEED FOR NETWORKING

    Through numerous public and private initiatives, the United States 
has made significant headway in bringing access to computing technology 
to schools throughout the nation. Schools are rapidly being equipped 
and wired, with nationwide statistics showing tremendous results.
    According to a NetDay survey released in March 2001, 97 percent of 
teachers surveyed said they had Internet access in their schools and 80 
percent had connections in classrooms. Eight out of ten teachers also 
believe that computers and access to the Internet improve the quality 
of education.
    This is the good news. Our nation has embraced the idea that 
computers and information technology can advance the learning 
environment for our children. The bad news is that the current model of 
educational computing--putting a computer in every classroom, or even 
on every desk--can also impose a significant drain on resources in 
terms of cost, maintenance and teaching time. In addition, without 
quality web-based educational content, classroom computing all too 
often becomes an exercise in underachievement and can actually 
exacerbate the digital divide.
    For example, the same NetDay survey found that two-thirds of 
teachers agree that the Internet is not well integrated into their 
classrooms and only 26 percent of them feel pressure to use it in 
learning activities.
    For the most part, current public and private initiatives have 
concentrated on providing computer hardware to classrooms. Not only is 
this insufficient for fully capitalizing on web-based learning 
opportunities, it can become a significant drain on available resources 
-rife with hidden costs.
    The GartnerGroup reports that only 17 percent of the cost of a 
personal computer is in the purchase price, with the rest in hidden 
maintenance, required upgrades, etc.
    Moreover, according to Market Data Retrieval (MDR), 69 percent of 
school instructional technology budget allocations are being spent on 
hardware, followed by 17 percent on software, and 14 percent on staff 
development. Clearly, these are important and necessary categories for 
investment--yet the numbers tell a story about hidden technology costs. 
By not taking full advantage of the Internet, schools get bogged down 
with expensive hardware and software, continual upgrades, expensive 
technical support, and a constant need for teacher re-training. These 
are expenses that even the most affluent school districts likely have 
trouble meeting. To expect less affluent districts--often found in 
rural areas and the inner cities--to keep pace is usually not an 
option, further contributing to the growth of the digital divide.
    For classrooms to realize the benefits of a web-based education 
environment--one in which the technology adapts to the needs of the 
user, instead of the user adapting to the constraints of the 
technology--we must rethink the current computer in the classroom 
model, and start thinking about the network architecture that could be 
employed by an entire school or school district. A single PC on a 
classroom desk doesn't cut it. On the other hand, a computing terminal 
on a desk, networked to other classrooms and schools throughout a 
school district and beyond can provide a breathtaking array of 
educational possibilities--in addition to significant long-term cost 
savings.
    While personal computers have, and will continue to have, an 
important role to play, we believe that less emphasis should be placed 
on purchasing this year's model of PC, replacing dated components, and 
upgrading software--with more emphasis placed on building long-term, 
reliable backend architecture. This means focusing on the benefits of 
centralized technology and networking a district's computers by 
building systems with scalable servers.
    A network-computing model for education envisions a system in which 
teachers, administrators, students and communities will all have tools 
to enable access to information, web learning, peers, parent-teacher 
communities, and greater learning opportunities--anytime, anyplace, by 
anyone, on any device. This anytime/anywhere computing model relies 
upon an open systems architecture in which information is accessed and 
delivered via the Internet.
    For example, by building a network framework within schools and 
school districts--based on open standards--lesson plans and web-based 
instructional content can be seamlessly integrated, for classroom and 
at-home access. Other advantages include real-time reporting of student 
achievement, which can allow students, parents and administrators to 
better track classroom progress, and maximizing efficiency in routine 
administrative tasks, such as scheduling and grading.
    Using an open systems model, reliable, manageable and secure web-
access is available to every user. This model offers not only 
accessibility, but distinct economic advantages in the form of reduced 
costs and increased access for students. This should be of vital 
importance to educational institutions.
    Allowing for ``self paced'' learning can help keep students more 
engaged and ultimately, make classroom time more productive for 
teachers and students. As average class size grows, student populations 
become more diverse. This, coupled with the trend towards 
``mainstreaming'' students with special needs, places added pressure on 
teachers to give critical one-on-one time. E-Learning can augment 
individualized teacher instruction to the benefit of both teacher and 
student. In addition, a ``smart'' e-learning program, can adapt itself 
to respond to an individual students needs by automatically identifying 
areas where mistakes are being made, and directing the lesson in a 
manner that specifically addresses problem areas. Lower cost web 
devices and the elimination of the need for special software on the 
device itself will allow for more students to have direct access from 
home or public facilities like libraries, to the Internet and 
specifically designed educational content.
    Administrators and teachers also appreciate the ability to 
collaborate with colleagues, sharing information, lesson plans and 
projects, as well as strengthening ties with parents. A networked 
system is the only efficient method for achieving a truly collaborative 
e-learning environment.

                         PROGRESS IN E-LEARNING

    Industry efforts and public/private partnerships have accounted for 
significant progress in providing access to computing technologies 
within schools. One example of particular relevance is the SchoolTone 
Alliance, an organization of leading education technology and service 
providers that includes AOL-Time Warner, Bigchalk.com, 
BritannicaSchool.com, Lucent Technologies, and Sun Microsystems. 
Collectively, they create web-based portal solutions for content, 
communications tools, applications and professional development for the 
education community. These education portals are web sites that provide 
organized access to the Internet and the delivery of services 
specifically tailored to the needs of the education community.
    The need for services such as SchoolTone have become abundantly 
clear. As we have learned, providing schools with personal computers 
and Internet access is not enough, as educators often feel overwhelmed 
-unable to fully utilize the tools they already have.
    SchoolTone Alliance members believe that by building a portal 
computing infrastructure and outsourcing a school's IT needs to service 
providers, schools and school districts can expedite the deployment of 
technology while reducing the overall costs.
    We believe the prospects offered by industry alliances such as 
SchoolTone will be the roadmap to the future of education on the 
Internet, and will become the preferred method for closing the digital 
divide among schools and students across America.
    With computing becoming a ``utility'' (similar to dialing a 
telephone) and new educational portals delivering quality content over 
the web, the economics for the education community can change. A high 
maintenance, fixed cost, depreciating infrastructure can become a 
maintenance-free, variable cost and easy to use environment . . . one 
that levels the playing field for education, and enables educators and 
students to focus purely on educational matters.
    In private business, it is estimated that a professional technician 
is responsible for servicing 50-100 computers. In our schools, each 
technician, on average, is responsible for 700-1,000 computers. 
Clearly, this is an impossible task, forcing teachers to spend class 
time doubling as PC technicians, or worse, meaning substantial downtime 
for classroom computers.
    The Web-based Commission has also called for stepped-up ``training 
and support for educators and administrators at all levels,'' and the 
National Education Association recommends that schools devote 40 
percent of their technology budgets (up from an average of 17 percent) 
to teacher training. Moreover, the National Center for Education 
Statistics found that teachers cited a lack of time to learn, practice, 
or plan methods for incorporating technology in the classroom as the 
greatest barrier to their use of computers and the Internet.
    While training is vitally important, and investments in 
professional development for teachers is critical, we believe that one 
of the most compelling points in favor of the network-centric education 
model is that teachers would no longer be required to double as IT 
professionals. Technology maintenance would be handled at the backend, 
at the school district level, allowing teachers to focus on how they 
wish to use the tools at their disposal.
    As Web-based education evolves, teachers will be able to free 
themselves to teach and students to concentrate on learning, without 
the need for sophisticated computer skills to take advantage of the 
web.

                            THE FEDERAL ROLE

    Sun believes Federal leadership is the catalyst needed to put all 
of our nation's schools in a position to make Internet technology work 
for them--and fully realize the promise of web-based opportunities in 
education.
    We believe that the Federal Government can and should play a 
significant role in creating incentives to make Internet resources--
especially broadband access and backend infrastructure--widely 
available, and to encourage the development of web-based content 
specifically designed for use in education.
    The goal of providing the best in technology to America's schools 
cannot be measured simply by access to technology and web-based 
educational content. The measure of success must be measured by student 
achievement.
    Recognizing that knowledge management of best practices in the 
implementation of education technology does not transcend beyond state 
boundaries, to help steer school districts towards the most effective 
use of resources and educational techniques, Sun supports the formation 
of a national center of excellence to report on best practices.
    Too often, technology is implemented without a strategic vision. 
The Federal Government, in partnership with state boards of education 
and the information technology industry, should become a 
clearinghouse--helping states and school districts to avoid duplicating 
efforts and wasting resources.
    The economic benefits of anytime/anywhere computing are as clear 
for cash-strapped school districts as they are for private industry. 
Making the most of our educational resources is the key to building the 
skilled domestic workforce necessary to ensure America's economic 
future.
    While progress towards achieving full connectivity will continue, 
and no doubt will be achieved, without concurrent development of 
meaningful web-based content, we would not be making the most of a 
resource with unlimited educational potential. To truly make headway in 
closing the digital divide, we must recognize that connectivity is not 
the ultimate goal, but rather, a method for enabling access to 
meaningful web-based educational content.
    For the educational community, connecting schools to the Internet 
and to each other will provide benefits in to three key areas:
    1. Lower Costs.--District-wide networks will create economies of 
scale, with schools sharing costs for backend technology and ongoing 
maintenance. This translates into lower IT expenditures for individual 
schools, and less need for teachers to be trained as IT specialists.
    2. Quality Content.--Developing web-based content will keep 
educational resources current. Updating a text book can take years, 
while updating a web site takes minutes.
    3. Easy Access.--With access to the Internet, any student, anywhere 
can take advantage of the best web-based educational resources. This 
concept has tremendous implications both for distance learning in rural 
areas, and for raising the level of academic achievement in our 
nation's poorer, urban schools.

                            RECOMMENDATIONS

    Funding.--Currently two-percent of all public education dollars--
Federal, State, and local--are committed for technology. Sun supports 
an increase in funding to five-percent. With the right investments 
today, to support teachers' professional development, access by schools 
to the latest in broadband technology, and the installation of 
district-wide smart network architecture, we will all reap the benefits 
of a leaner, stronger educational system, and a better trained, better 
prepared workforce for our future. Harnessing the potential of an 
Internet-based education model in this way will lead to significant 
cost savings for schools, increased access to quality content, and 
greater productivity.
    Digital School Districts.--Sun supports the Computer and 
Communications Industry Association call for a national digital school 
district initiative. This model program would provide funding for 
implementation of a smart network computing architecture in selected 
school districts throughout the country. A two-year Federal allocation 
of $52,000,000, to be met through an equal commitment by each 
participating state, would provide a big step toward implementing the 
vision of the Web-based Commission. Digital school funding would be in 
three phases:
  --Phase 1.--Create a National Digital School District Initiative as 
        part of the reauthorization of the Elementary and Secondary 
        Education Act. Fifty-one school districts would be funded, one 
        in each state and the District of Columbia, based upon a 
        competitive grant process. The program would be authorized at 
        $26,000,000 for Phase 1.
  --Phase 2.--A second round of funding, at $26,000,000, would create 
        51 additional Digital School Districts; with states and the 
        District of Columbia providing matching funds.
  --The total Federal commitment would be $52,000,000--with the benefit 
        of model school districts in every state serving as resources 
        and demonstration centers. These schools would form the nucleus 
        of a national center of excellence to report on best practices 
        by providing tangible examples of how technology can improve 
        education, achieve cost savings, and deliver education in ways 
        currently not imagined.
    Funding at this level--with a concurrent commitment for in-kind 
support by private industry--would be sufficient to equip public 
schools with the necessary technology, as well as providing adequate 
seed money to encourage the development of meaningful web-based 
educational content. The following are two examples of model programs 
that should be commended for concentrating resources on technology.

    ``A model charter school in Napa, California is part of an effort 
to start ten new High Tech High Schools throughout California, each 
participating school receives a one time matching grant of $2,000,000 
for start-up expenses, with private sector companies making significant 
donations of equipment, software and services.''

    ``Pennsylvania's Digital School Districts Initiative seeks to 
revolutionize education through the use of technology. From proposals 
submitted by schools throughout Pennsylvania, three districts were 
selected to serve as pilot programs--each receiving up to $2,000,000 in 
state funding, with private companies contributing products and 
services.''

    Both of these programs have taken the first step, and the lessons 
they have learned can form the basis for the broader strategic 
initiative to implement the smart network architecture in school 
districts throughout the country.
    A national network of model schools such as these, located in urban 
and rural areas throughout the nation, would become fully functional 
centerpieces for web-based learning--allowing area educators to become 
acquainted with the concepts and practical applications of e-learning.
    With this modest financial commitment, the Federal Government could 
become the catalyst for the growth of web-based education--a model for 
true educational reform.
    Open Standards.--Sun urges public officials at every level to 
support policies that promote the development of infrastructure and 
content based on open standards. Open standards are needed to make web-
based computing a reality. We need a policy that enforces and rewards 
the use of Internet standards such as browser-based applications, IMS, 
SIF, HTML, XML, JAVA and JINI and other standards developed by mutual 
agreement through standards bodies. The use of open standards will 
ensure the broadest participation, greatest innovation, and lowest 
costs by providing a technologically level playing field for all.

                               CONCLUSION

    Because schools lack the resources to invest in web-based learning 
technologies on their own, the government should adopt policies that 
encourage investment in backend infrastructure and content--as well as 
changing the metric used to judge success. Access to a personal 
computer and the Internet alone are not enough. The metric to measure 
success must shift to the ability to access web-based learning 
systems--including meaningful digital content.
    Without widespread access and use of dedicated education portals, 
the power of the Internet to reduce costs for schools, and facilitate 
access to the best educational content, will remain unfulfilled.
    During recent years, America's hi-tech industries have faced a 
critical shortage of skilled workers. Indeed, we've had to appeal to 
Congress to increase the level of H1-B visas to allow greater numbers 
of highly skilled foreign workers to come to this country. Importing 
foreign workers, however, is not the solution that we should rely on in 
the future. We must develop a domestic workforce to meet the needs of 
an increasingly competitive global economy. We firmly believe that 
improving America's primary and secondary education is of the utmost 
importance if we are to develop the talent we need.
    We have the resources today to make a difference. Working together, 
industry and government can provide the roadmap for schools throughout 
the country to make the investment in smart, efficient network 
computing -giving our children all the advantages they deserve.
    Thank you, Mr. Chairman.

    Senator Harkin. Thank you very much, Mr. Gann, and I want 
to get back to talk to you about changing that concept of how 
we are doing this. I think it is very exciting.
    Now, we will turn to Dr. Rose, co-executive director of 
CAST.

STATEMENT OF DR. DAVID H. ROSE, Ed.D., CO-EXECUTIVE 
            DIRECTOR, CAST

    Dr. Rose. Mr. Chairman, thank you for having me here. It is 
indeed an honor to be here and particularly because members of 
this committee have been central in passing landmark 
legislation, ADA, IDEA, Section 508, that have been critical in 
assisting individuals with disabilities in the past.
    In particular, students with disabilities now can assume a 
right to a free and appropriate public school education and can 
expect to find physically accessible educational buildings.
    Tragically, however, and that is why I am here today, most 
of the curricula, the materials for learning in those 
classrooms, are not, in fact, available or accessible to 
students with disabilities. At this particular moment in 
history, when innovative new educational technologies are 
proliferating, we have a unique and urgent opportunity to right 
this injustice. I am here to argue that it is a moment of great 
opportunity to both save money in the long term and save 
students and particularly to benefit all students.
    I want to describe three key areas in educational 
technology that are significant for students with disabilities: 
Assistive technology, digital curricula and universal design. 
In each area I want to offer a couple of recommendations. 
Assistive technologies are what most people think of when they 
think of what technology does for people with disabilities. 
Assistive technologies allow people to overcome barriers and 
there are visible examples on television all the time.
    Matthew, a third-grader, with physical disabilities who 
cannot speak or use his arms or legs can use electronic 
switches to drive a wheelchair and operate the computer to 
write and communicate.
    Katherine, a six-grader, who is blind, uses screen reader 
technologies to navigate the Internet and do her social studies 
homework.
    Nina, who has a brain injury that causes her to be aphasic, 
uses an electronic augmentative device to speak to her friends 
and collaborate on schoolwork.
    Even more spectacular, assistive technologies are under 
development including devices that can be implanted in the 
brain for hearing, for vision, for control of paralyzed 
muscles. These essential uses of technology for individuals 
with disabilities will require sustained Federal support. There 
is simply not enough profit in developing these low incidence 
technologies to attract investments of the private sector.
    So I make two recommendations. Congress should continue to 
fund research and development under part D of IDEA to ensure 
that we get powerful new assistive and augmentative 
technologies.
    And second, Congress should support through technical 
assistance grants contracts for the training of assistive 
technology specialists so that every school district knows 
about these technologies and knows how to use them. I spell out 
the recommendations in some more detail.
    Second, though, I want to talk about digital curricula 
because these recommendations I have made about assistive 
technologies often are what people again imagine. And it is 
dangerous to view assistive technology as the sole or most 
important focus of educational technology for students with 
disabilities. Such an orientation places the emphasis on the 
individual with the disability as what is broken. We need, in 
fact, to concentrate on the curriculum as what is broken. The 
environment itself is often hostile to students with 
disabilities.
    The lesson of ADA, in fact, that Senator Harkin has been an 
important part of, is that small affordances built into the 
environment, like curb cuts and ramps, are as critical for 
access as are the assistive technologies like motorized 
wheelchairs.
    The same is true for educational materials and methods. We 
need to use the new technologies not only to overcome existing 
barriers, but also to design better learning environments with 
fewer barriers right from the start.
    I want to give you an example. In The Concord, New 
Hampshire public schools that we have been working with for 
about 5 or 6 years, teachers and parents have been engaged in a 
painstaking effort to digitize every single piece of their 
curriculum. Why are they going to all this trouble? They are 
doing it because the digital versions of the books are much 
better for students with disabilities. The differences are not 
in the content; the digital versions have the same content. The 
difference is the flexibility with which that content can be 
displayed.
    In print versions, the content is permanently fused to 
paper. It is fixed. Everybody gets exactly the same thing. In 
digital versions, the content is presented dynamically by the 
computer. As a result, content can be displayed in many 
different ways and adjusted to many different learners.
    Let me just give some examples: Imagine in a classroom that 
we have worked with, all the students are reading, ``To Kill a 
Mockingbird''. In a digital version, Sarah, a student with low 
vision can display the text in a very large font so she can see 
it.
    Bill, a student who is blind, can have the computer display 
the text as spoken words, or have the computer print it out 
easily on a Braille printer.
    Jennifer, a student with severe physical disabilities, can 
change the display; turn its pages, with a single blink of her 
eye. Michael, a student with dyslexia, can click on a difficult 
word to have the computer read it aloud or link it instantly to 
a context-based definition.
    In these ways, digital versions of traditional curricular 
materials can effectively reduce barriers to learning; thereby 
reducing the costs associated with expensive later adaptations 
and pullout programs.
    We can actually do a lot more with digital curricula. In a 
recently completed study that we have done through the 
Department of Education's OSEP Program, we have digitized books 
and we have begun to add more supports and particularly for 
students with learning disabilities. These supports are 
individualized. While not everybody gets them, students who 
need them get them when they want them.
    In a study of 109 very severely learning disabled students, 
we looked at what would happen when students read novels in 
this new format, digital with enhancements for their needs.
    The results were stunning. Students who used the digital 
text found them more accessible, enjoyable and empowering than 
traditional books and by the way, so did their teachers. And 
they learned learning comprehension strategies much more 
effectively showing highly significant improvements, achieving 
half a year's progress after reading only three novels.
    Remember again, these are students that have not been 
learning a great deal at all about reading. And those showed up 
on later standardized tests of reading comprehension. The 
control group showed virtually no progress at all with 
traditional books. Further, where this approach has been used, 
students exhibited fewer behavior problems because they were 
engaged in the learning activity itself and felt success.
    Where do schools find books like this? Concord is making 
its own. This is a local and far too inefficient solution. Many 
schools across the country are doing the same thing resulting 
in an enormous duplication of efforts as schools all across the 
country are beginning to make their own digital versions.
    School districts and national publishers also face a 
bewildering and contradictory array of local requirements and 
formats for such digital technologies. Local solutions cannot 
work.
    A new piece of proposed legislation, The Instructional 
Materials Accessibility Act of 2001, is critical. This bill 
provides for the establishment of a single national electronic 
file format to be used by publishers when creating electronic 
versions of texts.
    A consistent standard will greatly facilitate the timely 
and efficient conversion of textbooks into digital versions 
that are accessible to students with disabilities: Braille, 
large print, digital audio and many other specialized versions 
like the ones I have mentioned.
    The proposed bill further calls for a national electronic 
file repository, a central and efficient solution to replace a 
hodgepodge of local homemade products.
    OSEP, under part D of IDEA, is supporting efforts that 
further the development of digital curriculum. For example, 
OSEP funds The National Center on Accessing the General 
Curriculum housed at CAST where research, design, development, 
dissemination and training related to digital, accessible 
curriculum materials can be furthered.
    We hope that Congress will urgently expand this kind of 
sustained and systematic work. I have three recommendations in 
this area: Congress should support The Instructional Materials 
Accessibility Act; Congress should support dissemination and 
training for teachers, administrators and parents in using 
better digital materials and Congress should support ongoing 
research and development to make better and better digitally 
supported materials for students.
    Lastly, and probably most importantly from our perspective, 
is the universal design of learning technologies. Making 
traditional books and printed materials accessible via new 
technology is necessary now, but it is not a sufficient step if 
all learners are to find the opportunities they deserve. In 
effect, we are still using new technologies to do old things. 
My colleagues in this panel have been describing and supporting 
ways to use powerful new technologies to do new things, to 
engage all students in active experimentation at a level that 
is not possible in traditional classrooms; to communicate about 
learning with the students all over the world, to evaluate 
their own learning, to construct problem solutions in social 
groups and on and on. These technologies are rightly preparing 
students for their future.
    Unfortunately, the design of most of these learning 
technologies does not consider students with disabilities. As a 
result innumerable new barriers for students with disabilities 
are being created inadvertently as we speak. These powerful new 
learning technologies are in their infancy and as yet unformed. 
Once formed, disseminated and in wide use, these technologies 
will have to be retrofitted, or new assistive technologies 
designed to overcome the new barriers being designed while we 
are discussing these issues.
    An analogy well known to members of this panel will 
illustrate my point. A number of years ago the new technology 
of television was inaccessible to viewers who were deaf. 
Eventually decoder boxes to display captions improved access to 
television for deaf viewers. The cost of this retrofitted 
technology, several hundred dollars per television, still 
excluded many people. Legislation requiring televisions to 
include caption display technology led to the development of 
small decoder chips costing pennies apiece that were included 
in all the new televisions. And the beneficiaries of this 
quality, efficient technology include not only those that are 
deaf, but hearing individuals in gyms, noisy airports, spouses 
retiring at different times and individuals learning English as 
a second language.
    The concept of building accessibility into learning 
technologies from the start is an example of what we call 
Universal Design. Well-executed universal design leads to less 
expensive solutions and better outcomes.
    For the recommendations I make regarding universal design 
of learning technologies, Congress should require that any 
educational technology developed, maintained, procured or used 
by the Federal Government should be universally designed. And I 
have several other recommendations on my printed transcript.
    In summary, I want to say I commend the Congress for its 
leadership and its commitment to students with disabilities. 
Fundamental to this commitment, and to all things I have 
recommended, is leadership implicit in IDEA. I strongly support 
the commitment to fund this important legislation.
    In the innovative area of educational technology it is 
essential not only to provide support under part B of IDEA, it 
is also essential to fund discretionary programs for the kinds 
of technology research, training and dissemination I described.

                           PREPARED STATEMENT

    And lastly, the over-arching recommendation I make to you 
is that we extend the same kinds of protections now afforded to 
physical spaces and to information in the workplace to a new 
area, the most important space for our future, the learning 
space. Our future as a culture depends on us making learning 
spaces, those precious spaces, accessible and supportive to 
every student. I believe that if we make the learning spaces of 
our schools accessible to all of our children, we will save 
both the short-term costs of poorly educating our children at 
the present and the long-term costs of not educating them for 
their future. This approach will save resources, but most 
importantly, it will save children.
    Thank you very much for your attention.
    [The statement follows:]

                  Prepared Statement of David H. Rose

    Mr. Chairman, and Members of the Subcommittee, it is an honor to be 
asked to testify at this important hearing on Education and Technology. 
My name is David Rose and I am the co-executive director of CAST, the 
Center for Applied Special Technology. I welcome the opportunity to 
speak with you today. The fact that I have been asked to testify on the 
educational technology needs of disabled students demonstrates that 
Congress understands how essential new educational technology is for 
ALL students.
    Members of this committee were central to the passage of numerous 
pieces of landmark legislation over the past 30 years. Section 504 of 
the Rehabilitation Act of 1973, the Individuals with Disabilities 
Education Act of 1975, Section 508 of the Rehabilitation Act of 1988 
and 1998, and the Americans with Disabilities Act in 1990 are all 
landmark pieces of legislation. Because of these laws, many things 
formerly thought to be impossible for individuals with disabilities are 
now not only possible, they are commonplace.
    Among those commonplace results is the fact that individuals with 
disabilities now have a right to a free appropriate public school 
education, and can expect to find educational buildings that are 
physically accessible to them. It remains a tragedy, however, that the 
curricula--the materials and methods for learning inside those 
buildings--are too frequently NOT available or accessible to students 
with disabilities.
    At this moment in history, when innovative new educational 
technologies are being designed and distributed to classrooms, there is 
a unique and urgent opportunity to right this injustice. If this 
opportunity is seized, the future will see disabled people making 
contributions to our society that were envisioned with the passage of 
these landmark pieces of legislation. Moreover, the strategic 
appropriation of funds at this time will result in more effective use 
of educational dollars and a subsequent reduction of people having to 
go onto SSI and SSDI programs because they are not qualified to work in 
the jobs of the future. The overall benefits will be shared not only by 
children with disabilities, but by ALL children.

                 ASSISTIVE TECHNOLOGIES AND THE PRESENT

    Most of the existing successes of technology for individuals with 
disabilities are examples of ``adaptive'' or ``assistive'' 
technologies. Assistive technologies are applications (either hardware 
or software) that are developed specifically to assist disabled 
individuals in overcoming barriers. We are all familiar with 
spectacular examples of these technologies:
  --Matthew, 3rd grader with physical disabilities who cannot use his 
        arms or legs, uses electronic switches to drive a wheelchair 
        and operate his computer to write and communicate.
  --Katherine, a 6th grader who is blind, uses screen reader 
        technologies to navigate the Internet and do her social studies 
        homework.
  --Nina, who has a brain injury that causes her to be aphasic, uses an 
        electronic augmentative communication device to speak to her 
        friends and collaborate on schoolwork.
    And there are even more spectacular assistive technologies under 
development, including ones that are more centrally placed in the 
nervous system--implanted technologies for hearing, for vision, for 
control of paralyzed muscles. These are essential uses of technology 
for individuals with disabilities and their continued development will 
require sustained federal support. There is simply not enough profit in 
these ``low incidence'' students to attract the strengths of the 
private sector.
    Therefore, I recommend that Congress should continue to fund IDEA 
Part D research and technology development to ensure that new assistive 
and augmentative technologies are developed, particularly those that 
interface with new learning technologies (see below) and those that 
support cognitive as well as sensory and physical access. In addition, 
congress should support, through technical assistance grants or 
contracts, the training of assistive technology specialists so that 
every school district has access to trained individuals who can teach 
children to use these powerful technologies in a timely fashion, can 
assist their parents in understanding and advocating for their use, and 
can assist teachers and administrators in being effective consumers and 
implementers of these technologies.
    That recommendation notwithstanding, there is a danger in viewing 
assistive technology as the sole focus of technology for students with 
disabilities. Such an orientation places the emphasis of intervention 
on the individual rather than the environment. While developing 
powerful technologies for overcoming barriers is a good thing, it must 
be balanced by designing environments that have fewer barriers. The 
lesson of the ADA is that small affordances built in everywhere, like 
curb cuts and ramps, are as essential as powerful motorized 
wheelchairs.
    The same is true for educational materials and methods. We need to 
use the new technologies not only to overcome existing barriers to 
learning, but to design environments for learning that have fewer 
barriers right from the start.

  MOVING TOWARD THE CENTER: THE POWER OF DIGITAL CONTENT FOR STUDENTS 
                           WITH DISABILITIES

    In the Concord, New Hampshire public schools, teachers and parents 
have recently completed the painstaking task of copying all of their 
printed curricular materials into the computer. They now have their own 
``digital versions'' of virtually every textbook and printed text used 
in their schools. Why did they go to all that bother?
    They did it because the digital versions of the books are much 
better for students with disabilities. The difference is not in the 
content--the digital versions have exactly the same content--the 
difference is in the way that content is displayed.
    In print versions the content is dried into the paper, and its 
display is fixed, immutable, ``one size fits all.'' In digital 
versions, on the other hand, content is presented dynamically on a 
computer screen. As a result, the power of the computer can be used to 
display the content in ways that are highly variable, malleable, and 
individualizable.
    Imagine, for example, a digital version of ``To Kill a 
Mockingbird'' for a 10th grade classroom:
  --Sarah, a student with low vision, can display the text in a very 
        large font so she can see it;
  --Bill, a student who is blind can have the computer display the text 
        as spoken words or have the computer produce it as refreshable 
        Braille;
  --Jennifer, a student with severe physical disabilities can change 
        the display (e.g. turn the pages) with a single blink of her 
        eye;
  --Michael, a student with dyslexia, can click on a difficult word to 
        have the computer read it aloud.
    In these simple ways, digital versions of traditional curricular 
materials can effectively reduce barriers to learning and reduce the 
costs associated with more expensive adaptations and pull-out programs. 
But it is possible to do more than merely reduce barriers. In a 
recently completed research study (with technology developed under 
support from U.S. Department of Education's Office of Special Education 
Programs), colleagues at CAST digitized books from local schools and, 
using the flexibility of digital text, embedded research-based 
strategies for improving reading comprehension. Nearly all of the 
students (109) in the study had learning disabilities and were 
performing at least two grade levels below their peers. Because of the 
digital texts, the level of access and support for reading 
comprehension could be adjusted closely to each child--providing the 
foundation for highly efficient learning.
    The results were stunning--the students who used the digital texts 
not only found them more accessible (and enjoyable and empowering) than 
students who used traditional books, they learned reading comprehension 
strategies much more effectively than their peers, and they showed 
highly significant improvements (achieving a half year's progress after 
reading only three novels) on later standardized tests of reading 
comprehension. Their peers without such digital books did not show any 
significant progress at all. Further, where this approach was used, 
students exhibited fewer behavioral problems because they were engaged 
in the learning activity.
    Where can schools get these kinds of digital books? Local solutions 
are far too inefficient. While many schools across the country, like 
Concord, have begun to digitize their own books, the duplication of 
effort is staggering. And it will get worse: most schools are not yet 
aware of this capability. The problem is further exacerbated, 
particularly for national publishers, by a bewildering and 
contradictory array of local requirements and formats.
    A new piece of legislation, the Instructional Materials 
Accessibility Act of 2001, is critical. This bill provides for the 
establishment of a single national electronic file format to be used by 
publishers corresponding to texts they publish. This will greatly 
facilitate the timely and efficient conversion of textbooks into 
versions that are accessible to students with disabilities: e.g. 
Braille, large print, digital audio and other specialized formats like 
those that I have been describing. The bill further calls for a 
national electronic file repository--a central and efficient solution 
to replace a hodge-podge of local ones. CAST is already in the process 
of developing and launching a major national Web-based resource--The 
Universal Learning Center--to provide accessible digital curriculum 
materials to teachers and parents.
    Having digital, accessible, learning materials in the schools is 
essential. Two other things are essential to ensure success. Most 
teachers are now unaware of, and unprepared for, the power of digital 
resources like these. Congress must ensure that there is support for 
the national training and dissemination of teachers, administrators, 
and parents in using these more efficient ways of making the curriculum 
accessible.
    And it is also important to understand that we have only begun to 
exploit the power of digital resources: Congress should support ongoing 
research and development designed to develop and implement digital 
curricula that are infused with the best of research-based 
accommodations and enhancements for individuals with disabilities and 
their peers.
    Projects funded under OSEP from part D funding of the IDEA (e.g. 
the National Center on Accessing the General Curriculum housed at CAST) 
are already making progress on each of these points, but I recommend 
that Congress intensify these efforts lest we miss the opportunity 
before us. These efforts will ultimately save resources, and they will 
save children.
  building a better future: universal design of learning technologies
    Making traditional books and printed materials accessible via new 
technology is a necessary, but not sufficient, step: in effect it is 
using new technologies to do old things.
    The more powerful new learning technologies, those that my 
colleagues on this panel have been describing, use the new technologies 
to do NEW things--to engage ALL students in active experimentation at a 
level impossible in ``traditional'' classrooms, to communicate about 
learning with other students all over the world, to evaluate their own 
learning, to construct problem solutions in social groups, to create 
and edit new kinds of media well beyond the limits of writing text. 
These technologies prepare students for their future.
    Unfortunately, most of these learning technologies are not being 
designed with students who have disabilities in mind. As a result, 
these new technologies are likely to create new barriers for students 
with disabilities, leaving disabled children farther behind.
    This is what I meant earlier by the urgency of the opportunity in 
front of us. We are at the infancy of these new learning technologies; 
they are not yet crystallized. Once they have been ``hardened'' and 
disseminated, it will be very expensive and wasteful to retrofit 
accessibility into them or to build new assistive technologies to 
overcome the barriers they impose.
    An analogy well known to members of this panel is important. 
Several decades ago television, a new technology, was completely 
inaccessible to individuals who were deaf. Over time, decoder boxes 
were developed that individuals could buy to put on their televisions 
and see captions. These retrofitted technologies were expensive, 
purchased at hundreds of dollars apiece. Later, important legislation 
was passed to require that the design of televisions include a decoder 
chip, a small piece of accessibility that is now built into every 
television at only pennies a television. The result is higher quality, 
cheaper accessibility for individuals who are deaf. But there is an 
additional benefit. The heaviest use of captions is not by deaf people 
at all--but hearing individuals in noisy bars and airports, individuals 
who are English language learners, exercisers in gyms and so forth.
    The concept of building accessibility into the technology from the 
start is an example of what is called Universal Design. It is generally 
better and cheaper to practice universal design than to retrofit 
solutions later. So, at this moment, when we are building new 
technologies for learning, we need to ensure that they are universally 
designed
    It is important to reflect on the recent history of Section 508. 
Most government websites were originally created with no awareness of 
disability access. Since the law was passed making it essential to 
design carefully, there has been enormous expense to retrofit sites. 
What can Congress do to ensure that the new technologies are 
universally designed right from the start?
    First, Congress can take the same kind of leadership as it did in 
legislating 508 for the workplace--in this case in the ``learning 
place.'' Congress should require that any educational technology 
developed, maintained, procured, or used by the Federal government 
should be universally designed. Secondly, congress should require that 
all educational programs administered or supported by the federal 
government use universally designed educational technology. These 
actions by themselves would send a clear message that, like 508, would 
extend throughout the larger education community.
    Second, to ensure rapid dissemination of better educational 
technologies, Congress should support the development of research-based 
guidelines for school districts, publishers, parents, and 
administrators on how to evaluate and select universally designed 
educational technologies.
    Third, provide funding for continued research and development in 
designing, implementing, and integrating better universally designed 
educational technologies.

                                SUMMARY

    I commend the Congress for its leadership and its commitment to 
students with disabilities. Fundamental to this commitment, and to all 
of the things I have recommended, is the leadership implicit in IDEA. I 
strongly support the commitment to fully fund this foundational 
legislation for our future.
    In the innovative area of educational technology it is essential 
not only to provide the kinds of support provided under Part B of IDEA, 
it is essential to fund discretionary programs that enable technology 
research, training, and dissemination--those under Part D. Without that 
support we will miss the opportunity, just at this propitious moment, 
to turn the power of educational technology in a direction that will 
indeed leave none of our children behind.
    In specific, I have made recommendations in three areas:
    (1) Assistive technologies.--These individual technologies are 
essential to overcome the barriers that students with disabilities face 
in normal classrooms. Congress should support their continued 
development into areas where barriers remain, and should fund technical 
assistance to school districts so that they can be effective consumers 
of these powerful technologies.
    (2) Digital Curricula.--Most existing classroom technologies are 
still print based--making it very difficult to use assistive 
technologies, and even more difficult to individualize the curriculum 
in ways that are necessary for students with disabilities. I recommend 
that Congress provide legislation so that every piece of curriculum is 
made available in digital format so that it can be easily customized 
and made accessible for all students and that Congress fund a central 
place for teachers and parents to locate these resources.
    (3) Universal Design of Learning Technologies.--As new technologies 
are developed for schools, they should be made accessible to all of the 
students in the school, right from the start. Congress should support 
efforts to make guidelines for the universal design of such 
technologies and provide leadership in purchasing, maintaining, and 
disseminating such technologies in all of its programs.
    The over-arching recommendation that I make to you is that we 
extend the same kinds of protections now afforded to physical spaces 
and to information in the workplace to a new area, the most important 
space for our future--the learning space. Our future as a culture 
depends on us to make the learning spaces, those most precious spaces 
in the lives of our children, accessible and supportive of every single 
child. I believe that if we make the leaning spaces of our schools 
accessible to all of our children, we will save both the short-term 
costs of miss-educating our children in the present and the long-term 
costs of NOT educating them for their future.

    Senator Harkin. Thank you very much, Dr. Rose. I was just 
making some notes on this. Thank you all. This has been great 
testimony and I appreciate your being here and for your 
involvement in this.
    I would like to start out first by talking with Mr. Gann 
about this concept that I think you brought to my attention a 
few weeks ago about the idea that we may be going down the 
wrong road if we are going to be focusing on a PC on very desk. 
We have had other testimony about how much money is going into 
hardware. These get outdated and they have to be upgraded all 
the time. You have a different concept. Your concept is--what 
did you call it--backend?
    Mr. Gann. Well, you could call it network centric computing 
or Internet computing.
    Senator Harkin. Yes. Flesh that out for me a little bit 
more. What you are talking about is some kind of a web-based 
system that would be district-wide based; maybe State-wide 
based? I am uncertain as to how large an area you would cover 
with this.
    There would be servers in the schools, but would not the 
kids still have to have some type of a terminal of some kind, 
either a PC or something that they would have within their 
classroom. You are not getting around the hardware. You may be 
getting around some of the software problems, but I do not know 
about the hardware problems. I am a little hazy as to how this 
is going to save us money and be more quickly upgradeable in 
the future, so could you talk about that a little bit more?
    Mr. Gann. Sure. Well, I think a really good analogy to 
begin with would be when you go on the Internet today and you 
go to a site such as Yahoo!, that site has all the data 
aggregated for you. In effect, it is a portal. And what is 
really great about a site like that is that you can use really 
any number of devices, a PC, or a network computer. Even Palm 
Pilots today, these inexpensive hand-helds, have Internet 
capabilities that can enable you to log into a portal like 
this. What is important about this approach of network 
computing, if you will, is that the intelligence is invested at 
the backend in servers and storage devices and in software. And 
it is based on open systems and open standards. What is really 
important here is simply by using a browser, whether from 
Microsoft or Netscape, whoever, you can access all of this data 
very easily and what is really important is that it becomes a 
lot less important what type of device you are using from a 
user point of view. So you can use a PC that is current today, 
you can use an older PC, you can use other devices, but what is 
important is that they are hooked into the Internet with the 
browser and that very fact of interoperating with the smarter 
system gives schools more choices. So to conclude, you 
absolutely will have a role for PC's. It is just that PC's and 
other devices can be used longer and more effectively if they 
are Internet-enabled with browsers. One of the things that we 
see is that older PC's, you know an old Pentium machine, we 
have even seen 486 machines that are sort of being given away 
for free now, can be significantly refurbished and used in 
schools if you put good browsers on them and you really hook 
them into a powerful backend.
    So it is all about using more devices effectively.
    Senator Harkin. Is this being done anywhere?
    Mr. Gann. Sure, it is being done a lot in the private 
sector----
    Senator Harkin. I mean in education.
    Mr. Gann. It is also being done in a number of schools. 
There is a grade school in Carrolton, Georgia where they have 
implemented this. There is also a school in Florida called The 
Celebration School, and a school in California in Newark.
    Senator Harkin. So your advice to us is as we move ahead in 
this--are you saying that perhaps by giving a block grant out 
to the States, that States may take this money and give it to 
local school districts and in each local school district they 
have all the sales people come around and they have got this 
system and that system and this system, and so you have a lot 
of different systems operating in say, one State, for example? 
Are you suggesting that what we might want to do is to try to 
move more in the direction of standardization or something of a 
backend system? Not telling what kind of backend system they 
have to have, but saying that this is where we want the money 
to be used; not just in buying laptops and buying software 
programs on an individual basis--individual school district 
basis, but doing it on a broader statewide basis. Is that what 
you are saying, what we ought to be doing is giving that kind 
of direction?
    Mr. Gann. Well, I think one thing that would be very useful 
is to help fund some pilots around the country to experiment 
with new innovations and technology, and I think there are a 
couple of really important rules that need to apply. One is it 
tends to be better when vendors work with open systems and 
standards. That ensures that any number of devices, any number 
of technologies from different vendors can work together. That 
way schools do not get locked into any one technology.
    The second piece of advice is if you put the technology 
more and more in the backend and focus it on the Internet, you 
can get some of the economies of scale that we have been 
talking about. So I think it is good to do some pilots and it 
is good to do some learning to see what really works well.
    Senatro Harkin. How about the rest of you? You've all been 
involved in this. You've all had kind of specific things here, 
but I think Mr. Gann is putting his finger on a divergent path 
that we may be going down. We are going to go one way or the 
other. If we decide to go one way, it is going to be hard to 
shift to the other, if you see what I mean. Once you start 
going down that path, I think it is going to be hard to shift 
over. So how do you feel?
    Now, Ms. Maxwell, you've been involved in a site-specific, 
school-specific program where they are not networked outside 
the school, but they are in those classrooms. They have got 
their individual programs, and what Mr. Gann is talking about 
is something where those students would be hooked up to a 
server. They would be able to tap into a broader base of 
information than perhaps they have right now. Just from your 1 
year of experience in this, how do you think that this might be 
better or worse than what you are doing right now?
    Ms. Maxwell. We have not locked ourselves into stand-alone 
situations. We are networked to a server and we do use the 
Internet, actually, probably more than software. I am not quite 
understanding, Mr. Gann. Are you going to be like a portal 
where you already have these sites available, or software 
available? I am not quite with what you are----
    Mr. Gann. Well, one of the things that we are seeing, 
actually, in the industry is a lot of the mainstream 
publishers, McGraw Hill, and other vendors are moving to a more 
network-enabled kind of environment. In fact, back here at our 
demo, a number of the vendors are showing off technology such 
as PLATO and Carnegie Learning that are moving to a more open 
web-enabled environment. So I think what is important here is 
that a lot of the traditional technologies can be re-engineered 
to get the benefit of the Internet while still working with 
existing systems such as PC's which, make no mistake, are still 
very effective tools.
    Ms. Williams. It is my impression that what you are talking 
about is technological backend with which I am not familiar, 
but what is true, as Gail said, is that most schools are 
working in a network environment, not a stand-alone 
environment. And the biggest challenge that they are having now 
is the bandwidth problem.
    Senator Harkin. Is a what?
    Ms. Williams. Bandwidth. So if you have--let's just say you 
have a school that has a very low computer-to-student ratio, so 
you have a possibility of having a lot of kids on line at the 
same time and the barrier is that the information just does not 
come up fast enough where you cannot navigate it fast enough, 
but they are already working in a highly networked environment 
since----
    Senator Harkin. Networking into schools or outside?
    Ms. Williams. Oh, outside. Yes. Because that is the whole 
point. They are doing a lot of interacting with other children 
or with experts through just plain old e-mail.
    Senator Harkin. But what are they networking with? With 
whom? With what?
    Ms. Williams. To information resources on the web.
    Ms. Maxwell. Exactly.
    Senator Harkin. OK.
    Ms. Williams. We use very little stand-alone software 
unless it is a project-based software where we--like word 
processing or desktop publishing. We are linked to the 
Internet. We do a lot of what are called WebQuests, where we 
use--the students are involved in projects that access sites on 
the Internet to perform a task and solve a problem. So most of 
our usage is already using the Internet and going out to sites 
all over the world and like she said, to look at experts, or 
talk to experts, or to do e-mail with other students in other 
schools. That is what we are doing a lot of already with 
project-based learning.
    Senator Harkin. Well, the question I have on that is number 
one, is it reliable? First of all, you never know who you are 
talking to on the Internet. Is it reliable? Has it been 
developed to a curriculum-based type of evaluation? Obviously, 
we all go on the Internet and do all kinds of things. But my 
question is, is having programs that are web-based, as Mr. Gann 
is talking about, is that geared toward education, towards all 
aspects of education? That is quite different than just getting 
on the web now and surfing all around and finding this and 
that.
    Ms. Maxwell. We do not have the students just out there 
surfing the Internet. Everything we do is very structured and 
that is where the time comes in on the teacher's part and 
myself. We do all of that searching and looking for good 
educational sites that are sound and accurate, ahead of time. 
That is where the WebQuests are an excellent source because 
those are very structured and every site you go to has been 
checked and made sure that they are educationally sound. We 
make sure everything is tied to our objectives and standards 
before we do it.
    Senator Harkin. Dr. Honey.
    Dr. Honey. I think what we have seen in the last 8 years is 
that there has been a tremendous growth in educational content 
on the Internet and there has been a tremendous amount of 
development and schools like Ms. Maxwell's that are well poised 
to take advantage of those resources can use them very 
effectively.
    But a much greater concern from my point of view is that 
not all schools are created equal. And we have growing, 
growing, growing disparities in this country, particularly 
between urban schools and better endowed, wealthier, suburban, 
often communities. The critical difference here is that in 
those communities people are either well poised to use the 
educational resources of the Internet, or not well poised to 
use them, and there is a widening gap.
    So there are real issues around how do you help struggling 
districts, districts that are facing real serious achievement 
problems move in the direction of being able to take advantage 
of what has really become an enormous wealth of education 
resources.
    Senator Harkin. Now you are talking about another slice. 
That is another divergence that is taking place out there. In 
back of that, I am still trying to figure out whether--now what 
Mr. Gann, Ms. Maxwell and Ms. Williams were basically saying is 
that is already there. That backend architecture is already 
there that they can tap into. But from your testimony, it seems 
to me you are saying that, again, we must rethink the current 
computer in the classroom models and start thinking about the 
network architecture that could be employed by an entire school 
or school district.
    A single PC on a classroom desk just does not cut it, with 
more emphasis placed on building long-term reliable backend 
architecture. This means focusing on the benefits of 
centralized technology and networking at districts that have 
computers, who are building systems with scalable servers, and 
on and on. The anytime/anywhere computing model relies upon an 
open system's architecture through which information is 
accessed and delivered via the Internet.
    Well, they say it is already there.
    Mr. Gann. Well, the good news is it already is there in a 
number of settings.
    I think the bad news is there is still more work to be 
done. What tends to happen for better or worse is the private 
sector tends to move faster in terms of implementing technology 
than a lot of public sector environments and I think schools 
unfortunately, you know, have been crippled with all sorts of 
funding problems and other issues. And oftentimes, technology 
does not get quite the attention it should. But the short 
answer is that this wave towards network centric or web-based 
learning is happening. It needs to happen quicker.
    I think the final thing in the real benefit of web 
deployment is that it enables applications that are tightly 
integrated, such that users can be accessible to the system in 
a greater variety of ways. So it is just really using Internet-
type technologies to enhance communication.
    Dr. Honey. One other point to add to what Mr. Gann was 
saying in his testimony is that this point about the stand-
alone $2,000 computer for every student is not realistic I 
think is very true and what I heard him saying is that we are 
seeing very rapid changes in that area where devices are 
becoming increasingly portable, increasingly smaller, Palm 
Pilots, IPAC's, all of those kinds of things can access the 
Internet at greatly reduced costs.
    Ms. Williams. The other development that I am reminded of 
is that there are a number of States that have instituted State 
education network infrastructures just to help facilitate these 
kind of things, Mo/Net in Missouri, the Florida Education 
Research Network. So at a lot of State levels there has been 
more sort of sub-network architecture, but there is a lot of 
use of the Internet in highly appropriate and mediated ways in 
schools. I know the example Ms. Maxwell gave us in the 
elementary school. But in secondary science education, I mean 
these students are going to primary resources, federally 
funded, The National Weather Service, NASA, USGS, and they are 
getting real-time data to use in building their knowledge base 
about how you do scientific inquiry and actually contributing 
to the scientific field in some ways as they enter their data 
into open data bases that are accessible internationally.
    So there is work being done in that regard, and some really 
fine examples of its effectiveness.
    Senator Harkin. Let me get onto the bandwidth problem. In 
Iowa we do not have the problem. Do we, Ms. Maxwell?
    Ms. Maxwell. It is really good.
    Senator Harkin. We have no problem with bandwidth. We have 
a fiber optic system that goes to every--well, I should say it 
goes to every high school. We are now going to every grade 
school. I do not know how long that is going to take. That is 
going to take a little bit longer, but every high school has 
all the bandwidth they need with fiber optics in the State of 
Iowa at very low cost, because the State owns the system.
    But that is not true in every State. And we do have that 
problem. How do you think the Federal Government ought to be 
involved in ensuring that elementary and secondary schools 
around the country have access to the broad highways? I want 
any thoughts you have on that. I mean we are putting this money 
in this Bill and we have--where is my table--but what happens 
we may be putting a lot of hardware in the schools, but we have 
got all this information here and you have got all the PC's out 
there and you have got some narrow little constrictor to go 
through. Tell me how we solve that.
    Dr. Honey. Well, two things, I would say. One is Cheryl 
Williams' comment about ensuring that the E-Rate monies 
continue to be available. They have been critically important 
in bringing bandwidth to schools.
    And another initiative that is underway that the Federal 
Government surely can take a leadership role in is the 
development of Internet Two, which is now going on--I am sure 
Mr. Gann can speak more about this from Sun Microsystems' 
prospective--but it is taking place in a number of universities 
and a number of corporations in the country with Federal money, 
some of which I know comes from The National Science 
Foundation.
    But there is now a movement underway to enable State 
networks to connect into the Internet Two backbone, which has a 
potential to bring greatly increased bandwidth to schools.
    Senator Harkin. I have to move on to the demonstration. My 
time is running out.
    But Ms. Williams, all of your testimony was basically about 
that you strongly support the New Federal Education Technology 
Block Grant. Then you went on to talk about how all of the 
programs that we have had under the Federal system; The 
Technology Literacy Challenge Fund, The Technology Innovation 
Challenge Grants, The Teacher Training Technology, you mention 
these as being very successful programs.
    Well, those are not in the block grant program. Well, one 
of them is, Teacher Training is in the block grant program. But 
The Technology Innovation Challenge Grants and The Technology 
Literacy Challenge Fund--do you mention that?
    Oh, I am corrected. You did not mention The Technology 
Literacy Challenge Fund and The Technology Innovation Challenge 
Grants. Somebody else did here.
    Ms. Williams. I think I did.
    Senator Harkin. But I am just wondering----
    Ms. Williams. In a perfect world, we would love those 
programs to be continued as they are. We understand that we 
need to work within the realities and it appears to us that 
there are many things that are underway with the Challenge 
Fund, which is administered by the States. And we are hopeful 
that the funding levels will remain the same so that the work 
that has been started can continue. I think that is the 
message.
    Senator Harkin. Any of you have any thoughts on The 
Technology Literacy Challenge Fund that we had and the 
technology grants at all? Again, if this is a block grant--I 
mean maybe they will do it and maybe they will not. I do not 
know.
    Dr. Honey. I think as a nationally run program, it has 
demonstrated incredible successfulness. I have served on The 
Expert Technology panel and I can tell you that many of the 
applications that rose to the top of what was a pretty 
comprehensive group of projects were originally seeded with 
monies from that program. It has allowed for tremendous 
innovation to take place in the education arena.
    Ms. Maxwell. As a recipient of one of those grants, they 
are great. But our concern is what happens when the grant runs 
out?
    Senator Harkin. I am sorry, Ms. Williams, you did mention--
you said here, ``Congress appropriated nearly $1.7 million for 
The Technology Literacy Challenge Fund and The Technology 
Innovation Challenge Grant, two Federal programs that support 
school district efforts to develop technology plans, acquire 
hardware and software and this Federal involvement has paid 
off. During this same period, student-to-computer ratios'', et 
cetera, et cetera, you went on.
    Again, I am not trying to challenge you. I am just trying 
to figure out whether or not we ought to just say we would 
leave it to the States to do this, or we actually keep these 
programs going.
    In other words, the block grant could be this big and we 
say do with it what you want, or the block grant can be this 
big and we say, ``but within that block you have to do these 
couple things''. You see what I am saying?
    Ms. Williams. I see exactly what you are saying.
    Senator Harkin. That is what you are saying?
    Ms. Williams. What we were advocating within the realities 
of today was that the total funding not be diminished. I would 
concur with Margaret Honey that there has been huge innovation 
that has been learned and spurred through national programs 
that it would be wonderful to be able to continue to leverage 
through dissemination and other fashions.
    It would be our hope that the whole effort around 
supporting innovation with education technology would not be 
diminished.
    Senator Harkin. Hopefully, we are not going to diminish it 
and will boost it even more.
    One last thing. Dr. Rose, on Universal Design, who decides? 
I mean Universal Design is a wonderful concept, but it may mean 
different things to different people. Who decides that?
    Dr. Rose. Well, I think one of the things I recommended is 
I think more work needs to be done on the guidelines. In fact, 
I just want to say that I agree with Mr. Gann. I think that the 
centralized way is the way to do it. Then it is much easier at 
that level to say, ``And here is what the guidelines are for 
what an educational environment on the web should look like'', 
and it should be inclusive of all students. It is very much 
easier to do that.
    The danger in block grants are that push from the national 
level to say, ``And all of our educational curricula delivered 
on the web delivered in every way should have Universal Design, 
and here are the guidelines.'' Congress has supported the 
development of guidelines from our best people developing 
educational technologies to ensure that those benefits go to 
everybody.
    Senator Harkin. Yet do you think we should require--that 
was your word, I believe--that all curricula be digitally 
formatted?
    Dr. Rose. Yes.
    Senator Harkin. I am not sure I understand that.
    Dr. Rose. Well, that is sort of a bit of a retrofit, but 
present books really are very difficult for lots of students to 
learn from. And then we have to do a lot of expensive things to 
try to make them work. And what I am saying is that if we, in 
addition to having the printed book, have a digital version, 
which, in fact, they were originally made in digital version; 
but those are delivered safely to students and their teachers, 
and in fact, we can do that individualizing, say, well, Billy 
needs this book to read out loud because he is blind. And Sally 
is going to need help with the decoding because she is 
dyslexic. All of that can be done easily digitally. The printed 
book is very hard. We have to hire teachers, we have to send 
them to special resource rooms, and you have to do something 
else because of the fact that the book does not work very well.
    In some States they are starting to do this, to say when 
you deliver us a curriculum, deliver us a digital version with 
it. And we just think that's the way to do it every time. It is 
a much more flexible version and much more accessible. It is 
delivering the ramps and curb cuts right with the book.
    Senator Harkin. You are focusing mostly on literacy, or on 
reading?
    Dr. Rose. I am, but I wanted to say that GBH is here and 
they have the same--it is true for videos, for audios, 
everything can be universally designed. I concentrate a little 
bit on the literacy here.
    Senator Harkin. Your advice is well taken. I think that we 
ought to think about putting something in there on Universal--
is there anything in there on Universal Design? I think that is 
something I would be interested in if you or anyone here has 
any suggestions.
    Dr. Rose. We have a lot, actually.
    Senator Harkin. Well, better get them to us.
    Dr. Rose. OK.
    Senator Harkin. I would like to think about putting that in 
the legislation, I think. I mean I am going to think about it 
some more. But I like the concept of universal design. I think 
it saves going back and redoing things later on.
    Dr. Rose. Yes.
    Senator Harkin. It is just like now we are beginning to 
design architecturally buildings that are universally 
adaptable.
    Dr. Rose. Yes. It is a lot cheaper to do at the beginning. 
And it turns out to benefit everybody and that is true in 
education. If you universally design the curriculum from the 
start, it has things built into it that are just better for 
everybody, just like in architecture.
    Senator Harkin. Yes, because as I said at the beginning, I 
am really amazed at how much more the technology has done to 
help kids with disabilities learn. It is amazing what is 
happening.
    Well, thank you all very much. I am now going to adjourn 
the hearing and then we are going to invite everyone to the 
back of the room to view demonstrations. We have eight 
companies demonstrating here, Break Through to Literacy, 
Microsoft, Carnegie Learning, PLATO Learning, Light Span, Apple 
and Power School, Wireless Generation and WGBH.

                         CONCLUSION OF HEARING

    Thank you all very much for being here, that concludes our 
hearing.
    [Whereupon, at 10:58 a.m., Wednesday, July 25, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
